 Semiannual Report to Congress
  Office of Inspector General for the U.S. Department of Labor




Volume 66                                   April 1- September 30, 2011
    A Message from the Acting Inspector General
     I am pleased to submit this Semiannual Report to Congress, which highlights the most significant activities
   and accomplishments of the U.S. Department of Labor (DOL), Office of Inspector General (OIG) for the six-month
   period ending September 30, 2011. During this reporting period, our investigative work led to 226 indictments,
   172 convictions, and $50.9 million in monetary accomplishments. In addition, we issued 40 audit and other reports
   which, among other things, recommended that $677.1 million in funds be put to better use.

OIG audits and investigations continue to assess the effectiveness, efficiency, economy, and integrity of DOL’s programs and
operations. We also continue to investigate the influence of labor racketeering and/or organized crime with respect to internal
union affairs, employee benefit plans, and labor-management relations.

In the employment and training area, an OIG audit of Recovery Act funds spent on green jobs found that with 61 percent of the
training grant periods having elapsed, grantees have achieved just 10 percent of their job placement goals. We recommended
that the Employment and Training Administration (ETA) evaluate the program and obtain estimates of the need for the remaining
$327 million of unspent grant funds. Another OIG audit found that ETA needs to better ensure that the Job Corps’ outreach and
admissions service providers enroll only eligible students. If ETA’s recent and planned changes to the Job Corps’ student enrollment
process are effectively implemented, then we estimate that nearly $165 million in funds could be put to better use by ensuring only
eligible students are enrolled. Another audit estimated that up to $124 million in Workforce Investment Act funding was spent on
training participants who did not obtain training-related employment, or information was insufficient to make the determination
that training-related employment was obtained.

An OIG investigation found a pattern of misconduct involving the Veterans’ Employment and Training Services (VETS) Assistant
Secretary and two other senior VETS officials, which reflected a consistent disregard of Federal procurement rules and regulations.
The Assistant Secretary and his Chief of Staff resigned following the issuance of our report.

Our investigations continued to identify vulnerabilities and fraud in DOL programs. For example, an investigation resulted in two
business owners being sentenced to more than three years in prison and ordered to forfeit $2.8 million as a result of their roles in
an H-1B visa fraud conspiracy. Another investigation resulted in the owner of a medical practice group being sentenced to serve
more than a year in prison and ordered to pay more than $2.5 million in restitution for fraudulent billings that were submitted to
DOL’s Office of Workers’ Compensation Programs, Medicaid, Medicare, and private insurance companies.

OIG investigations also continue to combat labor racketeering in the workplace. For example, one major investigation resulted
in the sentencing of the former secretary-treasurer of the District Council of Carpenters to 11 years in prison and restitution of
$5.7 million for receiving prohibited payments from contractors to allow the underpayment of contributions to the union-sponsored
benefit plans, resulting in financial harm to union members. Another OIG investigation led to a former Plumbers Union worker being
sentenced to three and one-half years in prison, among other things, after pleading guilty to charges of theft from an employee
benefit plan and embezzlement of approximately $412,000 in union dues.

The OIG remains committed to promoting the integrity, effectiveness, and efficiency of DOL. I would like to express my gratitude
to the professional and dedicated OIG staff for their significant achievements during this reporting period. I look forward to
continuing to work with the Department to ensure the integrity of programs and that the rights and benefits of worker and retirees
are protected.



                                                                                                                Daniel R. Petrole
                                                                                                       Acting Inspector General
           Selected Statistics......................................................................................2
           Significant Concerns..................................................................................3

           Worker Safety, Health, and Workplace Rights
           Occupational Safety and Health Administration........................................8
           Mine Safety and Health Administration.....................................................9
Contents   Wage and Hour Division...………..………...................………...…………………....11

           Worker and Retiree Benefit Programs
           Employee Benefits Security Administration.............................................14
           Office of Workers’ Compensation Program..............................................16
           Energy Employees Occupational Illness Compensation Act Program.......18
           Unemployment Insurance Programs........................................................19

           Employment and Training Programs
           Workforce Investment Act........................................................................22
           Green Jobs................................................................................................25
           Job Corps..................................................................................................27
           High Growth Job Training Initiative..........................................................31
           Foreign Labor Certification Programs........................................................32

           Labor Racketeering..................................................................................36
           Labor-Management Investigations...........................................................37
           Benefit Plan Investigations.......................................................................39
           Internal Union Corruption Investigations.................................................42

           Departmental Management....................................................................44
           Single Audits.............................................................................................46

           Legislative Recommendations.................................................................48
           Appendices.............................................................................................52




                                                       Semiannual Report to Congress: April 1 - September 30, 2011
                                                Selected Statistics
               Investigative recoveries, cost-efficiencies, restitutions,
               fines and penalties, forfeitures, and civil monetary action................... $50.9 million

               Investigative cases opened................................................................................... 332

               Investigative cases closed..................................................................................... 225

               Investigative cases referred for prosecution........................................................ 193

               Investigative cases referred for administrative/civil action.................................... 96

               Indictments.......................................................................................................... 226

               Convictions........................................................................................................... 172

               Debarments............................................................................................................ 35




               Audit and other reports issued.............................................................................. 40

               Funds recommended for better use.................................................... $677.1 million

               Outstanding questioned costs resolved during this period................ ...$19.7 million	
                  Allowed1.............................................................................................$2.2 million
                  Disallowed2...................................................................................... $17.5 million




          1	     Allowed means a questioned cost that DOL has not sustained.
          2	     Disallowed means a questioned cost that DOL has sustained or has agreed should not be charged to the government.




2   Semiannual Report to Congress: April 1 - September 30, 2011
                                     Significant Concerns
     The OIG works with the Department and Congress to provide information and recommendations that will be useful
  in their management or oversight of the Department. The OIG has identified areas that we consider particularly
  vulnerable to mismanagement, error, fraud, waste, or abuse. These significant concerns are included in our annual
  Top Management Challenges report which is required under the Reports Consolidation Act of 2000. The recently
  issued Top Management Challenges report can be found in its entirety on our website (http://www.oig.dol.gov).


Protecting the Safety and Health of                            are at least as effective as the programs operated directly
Workers                                                        by Federal OSHA, it lacks outcomes-based performance
                                                               metrics to measure its own Federal programs. Without
                                                               such metrics, OSHA cannot determine the effectiveness
The OIG remains concerned with the effectiveness of
                                                               of either Federally operated or state-run worker safety
Departmental programs in protecting the safety and health
                                                               and health programs. In addition, since OSHA can reach
of our nation’s workers. With more than 7,000 injuries and
                                                               only a fraction of the 7 million entities it regulates, it must
71 fatalities reported in 2010, the Mine Safety and Health
                                                               strive to target the most egregious and persistent violators
Administration (MSHA) continues to be challenged to
                                                               while protecting the most vulnerable worker populations.
effectively manage its enforcement efforts and programs
                                                               However, the OIG remains concerned with OSHA’s ability
to ensure that every miner returns home safely at the end
                                                               to evaluate the impact of its enforcement strategies. OIG’s
of each day. For example, MSHA has struggled to complete
                                                               previous audit work has shown, for instance, that OSHA
mandatory Regular Safety and Health inspections, as
                                                               has not effectively evaluated the impact of hundreds of
mandated by the Mine Act. A recent OIG report found that
                                                               millions of dollars in penalty reductions as incentives to
although MSHA reported that it completed all statutorily
                                                               employers to reduce workplace hazards. Further, OSHA has
required inspections of metal/nonmetal mines in FY 2010,
                                                               not determined whether penalty reductions actually result
it had recorded only “attempted inspections” at more
                                                               in enhanced compliance with safety and health rules.
than 5 percent of the mines because those mines were
temporarily idle on the day(s) on which MSHA visited the
mines. Other challenges for MSHA include maintaining           Improving Performance Accountability of
an experienced and properly trained enforcement staff;         Workforce Investment Act Grants
applying available enforcement authorities; reducing the
backlog of citations awaiting adjudication; timely setting     Successfully meeting the employment and training needs
and updating regulations and standards; and fostering the      of citizens requires selecting the best service providers,
development and implementation of new technologies.            making expectations clear to grantees, ensuring that
                                                               success can be measured, providing active oversight,
The OIG is also concerned with the Occupational Safety and     and disseminating and replicating proven strategies and
Health Administration’s (OSHA’s) challenge in evaluating the   programs. The OIG’s work continues to identify challenges
effectiveness of worker safety and health programs. In an      faced by the Department in ensuring that Workforce
OIG audit we found that while OSHA is required to ensure       Investment Act (WIA) grants accomplish program
that safety and health programs operated by 27 states          objectives. For example, for a sample of 362 Adult and


                                                                Semiannual Report to Congress: April 1 - September 30, 2011   3
                                                   Significant Concerns

Dislocated Worker program exiters, the OIG found that                 audits have identified unsafe or unhealthy conditions and
37 percent either did not obtain employment or their                  a lack of required safety at some centers.
employment was unrelated to the training they received.
In addition, with the downturn of the economy, the OIG                Safeguarding Unemployment Insurance
remains concerned with the Department’s ability to meet
increased demand for services provided by the workforce
                                                                      Improper payments of unemployment insurance (UI)
system. Meeting this increase in demand, while continuing
                                                                      compensation benefits are a continuing concern for
to provide intensive services such as career counseling
                                                                      the OIG. For 2010, the Department reported improper
and case management, are critical to helping workers find
                                                                      payments totaling $17.5 billion, an increase from the
new jobs quickly.
                                                                      $12.3 billion reported for 2009. The improper payment rate
                                                                      also increased from 10.3 percent in 2009 to 11.2 percent
Ensuring the Effectiveness of the Job                                 in 2010. In total, the Department estimates that nearly
Corps Program                                                         $32 billion of improper payments occurred over the past
                                                                      three years. The current economic downturn has made
The Job Corps program is intended to serve at-risk, low-              controlling overpayments more difficult, as the number
income youth (ages 16-24). The OIG’s work has consistently            of claims filed has greatly increased and new programs
identified challenges to the effectiveness of the Job Corps           had to be implemented quickly. In turn, this resulted
program. For example, we are concerned with Job Corps’                in states shifting resources from detecting improper
ability to ensure student eligibility. A recent OIG audit             payments to processing claims. OIG investigations also
found that Job Corps’ policy allowing potential students              continue to uncover fraud committed by individual UI
to self-certify their family income levels was not effective.         recipients who do not report or underreport earnings, as
We estimated that 472 (10 percent) of the 4,718 active                well as fictitious employer schemes. In addition, recent
students enrolled in the program during March 2011 were               investigations have confirmed criminal schemes involving
ineligible for the program, because they did not meet the             employers who knowingly employ undocumented or
low-income requirements.                                              improperly documented foreign workers for whom they
                                                                      intentionally fail to make the required unemployment
The Job Corps program is also challenged to improve                   insurance contributions. The Department estimates
performance and financial accountability, and ensuring                that about $3.7 billion of overpayments resulted from
health and safety. Since 2006, Job Corps has spent almost             fraudulent misrepresentation by claimants.
$1.5 million on consultants to improve its performance
metrics and outcomes. However, a recent OIG audit found               Improving the Management of Workers’
that Job Corps officials and other decision makers did not            Compensation Programs
have reliable performance information to determine, for
example, how effectively Job Corps placed students in
                                                                      The Department has responsibility for managing the
jobs that matched the vocational training they received.
                                                                      Energy Employees Occupational Illness Compensation
Previous OIG work has also found that weak controls at
                                                                      Act Program (Energy workers’ program) and the Federal
centers have resulted in the overstatement of performance
                                                                      Employees’ Compensation Act (FECA) Program. The OIG’s
results and unallowable costs charged to Job Corps. We
                                                                      concern for the Energy workers’ program centers on the
also found that center operators were not always awarding
                                                                      timeliness of its claim decisions. Complex regulatory
contracts and claiming related costs in accordance with
                                                                      requirements and the difficulty of locating employment
the Federal Acquisition Regulation. Moreover, past OIG

4       Semiannual Report to Congress: April 1 - September 30, 2011
                                              Significant Concerns

and other records, as well as the inability of sick, often      operates. The Department is also challenged with statutory
aging, claimants to fully understand their rights and           limits on its authority in the H-1B program and uncertainty
responsibilities, contribute to the lengthy decision process.   regarding its authority to debar individuals or entities.
This is exacerbated by the fact that the National Institute     In addition, as detailed in this Semiannual Report, OIG
for Occupational Safety and Health (NIOSH) must prepare         investigations continue to uncover schemes carried out
a complicated and time-consuming dose reconstruction of         by immigration attorneys, labor brokers, employers, and
the amount of radiation to which an employee with cancer        transnational organized crime groups.
was exposed, and the Department has no regulatory
authority to control the completion time of the NIOSH           Securing Information Technology Systems
process. The Department reported that in 2010, it took          and Protecting Related Information
about 200 days for a final decision to be reached for cases
                                                                Assets
not sent to NIOSH and more than two-and-a-half years for
cases sent to NIOSH.
                                                                Safeguarding information assets is a continuing challenge
                                                                for all Government agencies, including DOL. OIG information
In the FECA program, our concern is with preventing fraud
                                                                technology (IT) audits over the past several years have
and improper payments. The FECA program must be
                                                                identified access controls, oversight of third-party
responsive and timely to eligible claimants while ensuring
                                                                (contractor) systems, and inventory of IT assets as areas
it makes proper payments. Opportunities for claimants
                                                                most challenging to the Department. These weaknesses
to defraud the program are made more likely by FECA’s
                                                                represent a significant deficiency over access to key
inability to match FECA compensation recipients against
                                                                systems and may permit unauthorized users to obtain or
Social Security records. Other challenges facing the FECA
                                                                alter sensitive information, including unauthorized access
program include moving claimants off the periodic rolls
                                                                to financial records. In addition, the Administration’s goal
when they can return to work or their eligibility ceases,
                                                                of expanding the use of technology to create and maintain
preventing ineligible recipients from receiving benefits,
                                                                an open and transparent government, while safeguarding
and preventing fraud by service providers.
                                                                systems and protecting sensitive information, has added
                                                                to the challenge. Further, we remain concerned with the
Maintaining the Integrity of Foreign Labor                      Department’s ability to secure sensitive information that
Certification Programs                                          can be accessed remotely, stored on mobile computers/
                                                                devices, or any form of data being accessed and used
DOL’s Foreign Labor Certification (FLC) programs are            outside of a DOL office setting.
intended to provide U.S. employers access to foreign
labor to meet American worker shortages under terms             Ensuring the Effectiveness of Veterans’
and conditions that do not adversely affect U.S. workers.
                                                                Employment and Training Programs
Ensuring the integrity of the Department’s FLC programs,
while also providing a timely and effective review of
                                                                Providing meaningful employment and training services
applications to hire foreign workers, is a continuing
                                                                to military members transitioning to civilian employment
challenge for the Department. Our work has shown that
                                                                is a continuing challenge for the Department, particularly
the Department could improve its initial application
                                                                in light of rising unemployment rates among veterans.
reviews, post-adjudication processes, and monitoring
                                                                A recent OIG audit of the Department’s Veterans’
activities to better protect the interests of U.S. workers
                                                                Employment and Training Service’s (VETS’) Transition
under the regulations by which the program currently

                                                                 Semiannual Report to Congress: April 1 - September 30, 2011   5
                                                  Significant Concerns

Assistance Program (TAP) found that VETS did not ensure              a Chief Acquisition Officer (CAO) whose primary duty is
that participants received the employment assistance                 acquisition management.
needed to obtain meaningful employment. VETS also did
not use measurable performance goals and outcomes
to evaluate program effectiveness and lacked adequate
contracting oversight for TAP workshop services.

Another challenge for VETS is reducing homelessness.
VETS’ Homeless Veterans’ Reintegration Program was
the first nationwide Federal program focused on placing
homeless veterans into jobs. The program provided
employment and training services to an estimated 23,500
homeless veterans in FY 2010. However, a recent OIG audit
found that performance results fell short of the planned
goal of placing 9,093 veterans into employment by 2,461
veterans, or 27 percent.


Improving Procurement Integrity

The OIG remains concerned with the Department’s ability
to ensure integrity in procurement activities. Our most
recent audits and investigations have identified numerous
deficiencies in procurement activities delegated to program
agencies. For example, MSHA could not support sole-
source awards, did not promote full and open competition,
or maximized small business opportunities. Likewise, VETS
management did not ensure that contract services were
properly authorized by the contracting officer or that
supporting documentation was maintained for contract
payments. In addition, a recent OIG investigation into
allegations of improper procurement activities within
VETS revealed the circumvention of rules and regulations
related to open competition and advisory and assistance
contracts, as well as the acceptance of free services. We
are concerned that until procurement and programmatic
responsibilities are properly separated and effective
controls are put in place, the Department will continue to
be at risk for wasteful and abusive procurement practices.
Further, while the Department is taking positive actions
to improve procurement integrity, it has yet to appoint



6      Semiannual Report to Congress: April 1 - September 30, 2011
Worker Safety, Health, and
    Workplace Rights




                 Semiannual Report to Congress, Volume 62
                            Worker Safety, Health, and Workplace Rights


    Occupational Safety and Health Administration
      The Occupational Safety and Health Administration (OSHA) was established by the Occupational Safety and
    Health Act of 1970 (OSH Act). OSHA’s mission is to assure, so far as possible, that every working man and woman in
    the American workplace has safe and healthy working conditions. OSHA ensures the safety and health of America’s
    workers by setting and enforcing workplace safety and health standards; providing training, outreach, and education;
    and encouraging continuous improvement in workplace safety and health.


Safety Inspector Impersonators Convicted
of Extorting NYC Builders

Anthony Lewis and Kyle Correll were convicted on August
11, 2011, on charges of enterprise corruption, grand
larceny, engaging in a scheme to defraud, and extortion.

Lewis and Correll were found guilty of extorting thousands
of dollars from legitimate building contractors throughout
New York City by threatening to report non-existent safety
violations and hazards at job sites in a scheme dating
back to 2005. The defendants, wearing hardhats bearing
the name of their fictitious minority labor coalition, the
Committee on Contract Compliance, falsely claimed to
represent government regulatory agencies, such as OSHA
and the New York City Department of Buildings. They also
conducted false inspections, wherein they documented
and videotaped supposed violations. They then threatened
to report the violations, many of which were non-existent,
to regulatory agencies unless the contractors agreed to
pay them for their silence.

This is a joint investigation with the New York County
District Attorney’s Office. The People of the State of New
York v. Anthony Lewis and Kyle Correll (Supreme Court of
the State of New York, County of New York)




8       Semiannual Report to Congress: April 1 - September 30, 2011
                          Worker Safety, Health, and Workplace Rights


              Mine Safety and Health Administration
     The Federal Mine Safety and Health Act of 1977, as amended by the Mine Improvement and New Emergency
   Response Act of 2006 (MINER Act), charges the Mine Safety and Health Administration (MSHA) with protecting the
   health and safety of more than 300,000 men and women working in our nation’s mines.



MSHA Overstated the Inspection                                   districts to document the rationale for setting or changing
Completion Rate for Metal and Nonmetal                           a mine’s status. In addition, a problem with MSHA’s online
                                                                 process for registering new mines may have diminished the
Mines
                                                                 ability of field offices to timely monitor these mines. As a
                                                                 result, MSHA had no assurance that it was computing the
The MINER Act requires MSHA to conduct regular safety
                                                                 correct number of required inspections at each mine.
and health inspections of the nation’s metal/nonmetal
mines—four times per year at underground mines and
                                                                 In addition, MSHA’s policies allowed an “attempted
twice per year at surface mines. Each year from 1977 to
                                                                 inspection” to eliminate the requirement to complete
2007, MSHA reported that it had not completed all of the
                                                                 a regular safety and health inspection. An attempted
required regular safety and health inspections. In October
                                                                 inspection was typically recorded when the inspector
2007, MSHA implemented the “100 Percent Plan” to
                                                                 found no one at the mine during the unannounced visit
ensure the agency completed all mandatory inspections
                                                                 to conduct a regular safety and health inspection. This
by the end of each fiscal year (FY). In each of the last three
                                                                 occurred because many metal/nonmetal mines operate
years (FY 2008-FY 2010), MSHA reported completing all
                                                                 on an irregular or less-than-full-time schedule. While
required regular safety and health inspections.
                                                                 inspectors often returned and conducted an inspection
                                                                 at these mines at a later date, MSHA policy did not require
As part of our audit oversight responsibility and in response
                                                                 them to do so. During FY 2010, MSHA recorded attempted
to complaints we had received, the OIG conducted an audit
                                                                 inspections at 2,226 mines. Of these, 732 mines (33
to determine whether MSHA: assigned the appropriate
                                                                 percent) with reported miner work hours did not receive
operating status to mines, conducted the correct number
                                                                 a regular safety and health inspection during the year. As
of regular safety and health inspections for each mine, and
                                                                 a result, MSHA reported an inspection completion rate
maintained evidence that each recorded regular safety
                                                                 of 100 percent in FY 2010, yet 732 mines (5.6 percent)
and health inspection was performed.
                                                                 received only an “attempted inspection.”

We found that MSHA could not demonstrate the
                                                                 Further, in 29 out of the 32 cases (91 percent) that
appropriateness of the “mine status” it assigned and used
                                                                 we reviewed, MSHA included the inspections in its
to determine the number of required regular safety and
                                                                 computation of its inspection completion rate prior to
health inspections at each mine. Mine statuses include:
                                                                 supervisory review. Since supervisory review can result
active, intermittent, non-producing, new, and abandoned.
                                                                 in a determination that additional inspection work should
This occurred because vague national definitions resulted
                                                                 be performed, inspections should not be included in the
in districts using varied criteria to make mine status
                                                                 computation of MSHA’s inspection completion rate until
determinations; and because MSHA did not require
                                                                 a supervisor has reviewed and accepted the work.

                                                                  Semiannual Report to Congress: April 1 - September 30, 2011   9
                            Worker Safety, Health, and Workplace Rights

We recommended that MSHA: (1) design objective national               required mine foreman examination when, in fact, he
criteria for assigning a mine status and implement a system           had not. Harrah was sentenced to 10 months in prison
of controls to ensure the consistent implementation of                and three years’ probation.
these criteria; (2) design and implement procedures to
assure that information on all new mines is communicated              This was a joint investigation with the Federal Bureau of
to the responsible field office in a timely manner; (3)               Investigation (FBI) and MSHA. United States v. Harrah
examine and implement ways to increase the probability                (S.D. West Virginia)
that inspectors will arrive for regular safety and health
inspections on days that a mine is operational; (4) more
clearly and completely report the actual results of its
efforts to conduct regular safety and health inspections;
and (5 ) require supervisors to document their review and
acceptance of each regular safety and health inspection
report before it is included in MSHA’s computation of
its inspection completion rate. MSHA agreed with our
recommendations and committed to developing and
implementing corrective actions. (Report No. 05-11-004-
06-001, September 29, 2011)


Mine Foreman Sentenced to Ten Months
in Prison

Thomas Harrah, a section foreman at Performance Coal
Company’s Upper Big Branch Mine (UBB), was sentenced
on September 22, 2011, for providing false statements to
investigators and making false statements, representations,
and certifications in MSHA documents. Performance Coal
Company was a subsidiary of Massey Energy in 2010.

On April 5, 2010, a catastrophic underground coal mine
explosion occurred at UBB –South in Montcoal, West
Virginia that killed 29 coal miners. From December
2007 through August 2009, while working at UBB, he
falsely operated as a mine Section Foreman. Harrah
misrepresented himself as a certified mine examiner
and foreman and certified approximately 200 log entries
relating to mine safety. In August 2009, he was transferred
to another Massey Energy subsidiary where he continued
the fraudulent practice. In addition, during an investigation
of the explosion, Harrah falsely and knowingly represented
to Federal agents and officials that he had passed the

10      Semiannual Report to Congress: April 1 - September 30, 2011
                         Worker Safety, Health, and Workplace Rights


                                Wage and Hour Division
    The Wage and Hour Division (WHD) is responsible for enforcing labor laws such as those that cover: minimum
  wage and overtime pay; child labor; record keeping; family and medical leave; and migrant workers; among others.
  Additionally, WHD administers and enforces the prevailing wage requirements of the Davis-Bacon Act and other
  statutes applicable to Federal contracts for construction and the provision of goods and services. The Davis-Bacon Act
  and related acts require the payment of prevailing wage rates and fringe benefits on Federally financed or assisted
  construction.


$5.1 Million in Restitution Ordered in                          This was a joint investigation with the NYCHA-OIG, WHD,
Prevailing Wage Fraud Investigation                             and the Internal Revenue Service (IRS) Asset Forfeiture Task
                                                                Force. United States v. Torres, et al. (E.D. New York)

Joseph Torres, the president of Serrot Construction and
All American Building and Development, was sentenced            Pennsylvania Woman Sentenced in
on June 17, 2011, to six months’ home confinement and           Connection with False Claims to the
three years’ supervised release. Torres’ sentence resulted      United States
from his guilty plea to mail fraud and tax evasion charges.
Torres was also ordered to pay restitution of $5,106,853,       Barbara Ruffner, the owner and operator of Ruffner
jointly and severally with co-conspirators Simon Whitley        Trucking, was sentenced on July 29, 2011, to three years’
and Steven Coren, and fined $100,000 for defrauding the         probation, six months’ home detention, and ordered to
New York City Housing Authority (NYCHA).                        pay restitution in the amount of $82,501 for submitting
                                                                false claims to the United States Postal Service (USPS)
From 1997 to 2000, Serrot Construction was awarded              involving Federal wage and fringe benefits. In 2002,
approximately $20 million in Federally funded contracts         Ruffner received a contract to transport mail that
to install doors in public housing projects throughout          required her to pay her drivers a wage and fringe benefit
New York City. During the performance of the contracts,         rate established by DOL. Beginning about April 2003, she
which included a prevailing wage requirement, Torres            filed claims with USPS in order to receive an increase
and Whitley devised an elaborate series of schemes              in her contract rates after DOL increased the wage rate
to defraud NYCHA, underpay employees, avoid paying              applicable to her employees. However, Ruffner never
taxes on the fraudulently derived income, and launder           paid her employees the wage and fringe benefit rates
criminal proceeds through the purchase of commercial            required by the contract. The loss to the government was
rental properties. These schemes resulted in employees          estimated as $12,934, and the loss to her employees was
being underpaid by more than $5.7 million. The Court            approximately $69,567 for a combined total of $82,501.
ordered that the restitution and forfeiture be distributed
to approximately 100 employees commensurate with the            This was a joint investigation with WHD and USPS-OIG.
back wages owed.                                                United States v. Barbara Ruffner (W.D. Pennsylvania)




                                                                 Semiannual Report to Congress: April 1 - September 30, 2011   11
Worker and Retiree
Benefit Programs




             Semiannual Report to Congress, Volume 62
                                    Worker and Retiree Benefit Programs


         Employee Benefits Security Administration
    The Employee Benefits Security Administration (EBSA) is responsible for overseeing more than 150 million Americans
  covered by more than 718,000 private retirement plans, 2.6 million health benefits for health plans, and similar numbers
  of other welfare benefit plans holding more than $6.5 trillion in assets—as well as plan sponsors and members of
  the employee benefits community. EBSA is responsible for administering and enforcing the fiduciary, reporting, and
  disclosure provisions of Title I of the Employee Retirement Income Security Act of 1974 (ERISA).


Patient Protection and Affordable Care                                EBSA both requested and obtained public comments on
Act: Further EBSA Action Could Help                                   issued interim-final PPACA regulations (and has indicated
                                                                      its intention to address the comments before finalizing
Ensure Implementation and Compliance
                                                                      the regulations), EBSA had not established a timeline to
                                                                      address the more than 1,900 public comments it received.
The Patient Protection and Affordable Care Act (PPACA)
                                                                      EBSA could improve transparency by providing at least
was enacted on March 23, 2010, and amended by the
                                                                      an estimated timeline to do so. EBSA officials stated that
Health Care and Education Reconciliation Act on March
                                                                      public comments would be responded to appropriately
30, 2010. PPACA imposed new coverage requirements on
                                                                      when EBSA finalizes the interim-final regulations.
ERISA-covered, employer-sponsored group health plans.
We conducted an audit to determine what actions EBSA
                                                                      Our audit also found that EBSA needs to: review PPACA
had taken toward the implementation of PPACA.
                                                                      requirements during health plan investigations, provide
                                                                      HHS with a clearer and more specific determination on
We found that EBSA has taken significant actions toward
                                                                      benefits “typically” covered by employer-sponsored plans
implementing PPACA requirements through issuing eight
                                                                      as required by PPACA, and draft a proposed rule regarding
interim final regulations. EBSA has: conducted research
                                                                      when persons providing insurance through multiple
studies and surveys; provided compliance assistance
                                                                      employer welfare arrangements are subject to State law,
and outreach to employers and plan participants; and
                                                                      as required by PPACA section 6604.
issued sub-regulatory guidance – including four technical
releases, seven model notices, and six sets of frequently
                                                                      We made four recommendations to EBSA: (1) work
asked questions.
                                                                      with the HHS, Treasury, and the Office of Management
                                                                      and Budget (OMB) to establish specific timetables to
PPACA provides DOL, U.S. Department of Health and
                                                                      respond to public comments and issue final regulations;
Human Services (HHS), and U.S. Department of Treasury
                                                                      (2) incorporate PPACA requirements immediately into
(Treasury) with the authority to promulgate interim-final
                                                                      the enforcement program to assist plans in complying
rules that it deems necessary or appropriate to carry out
                                                                      with PPACA; (3) determine benefits typically covered by
PPACA provisions without first meeting the full notice and
                                                                      employer­sponsored plans and provide this to HHS; and
comments rulemaking requirements of the Administrative
                                                                      (4) proceed with rulemaking relative to PPACA section
Procedure Act. Due to time constraints, EBSA used this
                                                                      6604. EBSA agreed with recommendations 1 and 4
authority to issue the eight PPACA interim-final regulations,
                                                                      regarding future interpretive guidance. With respect to
which do not require public notice and comments. While
                                                                      enforcement (recommendation 2), EBSA stated that its


14      Semiannual Report to Congress: April 1 - September 30, 2011
                                Worker and Retiree Benefit Programs

initial approach to enforcement, including the provision
of compliance grace periods, was consistent with the
Administration’s overall phased-implementation approach
to the PPACA. Beginning in FY 2012 EBSA will conduct
PPACA compliance reviews as part of its Health Benefits
Security Project, a new national enforcement project.
With respect to recommendation three, EBSA believes
that it has fully discharged its statutory responsibility by
issuing a report on a survey of covered benefits that will
help HHS to determine the benefits offered under a typical
employer health plan. (Report No. 09-11-003-12-121,
September 30, 2011)




                                                               Semiannual Report to Congress: April 1 - September 30, 2011   15
                                   Worker and Retiree Benefit Programs


          Office of Workers’ Compensation Program
   The Office of Workers’ Compensation Programs (OWCP) administers four workers’ compensation programs: Energy
  Employees Occupational Illness Compensation program, Federal Employees’ Compensation program, Longshore and
  Harbor Workers’ Compensation program , and Coal Mine Workers’ Compensation Program.



  Federal Employees’ Compensation Act Program
    The Federal Employees’ Compensation Act (FECA) program provides workers’ compensation coverage to approximately
  2.8 million Federal, Postal, and certain other employees for work-related injuries and illnesses. Benefits include wage-
  loss benefits, medical benefits, vocational rehabilitation benefits, and survivors’ benefits for covered employees’
  employment-related death. In FY 2010, the FECA program made over $1.8 billion in wage-loss compensation payments
  to claimants and processed approximately 19,900 initial wage loss claims. At the end of FY 2010, 43,100 claimants
  were receiving regular monthly wage loss compensation payments.


Owner of Medical Practice Sentenced for                              Physician Pleads Guilty to Health
Fraudulently Billing OWCP, Medicare,                                 Care Fraud and Agrees to Forfeit Over
and Insurance Companies                                              $900,000

Dr. Mark Huang, owner and operator of Advantage Medical              Dr. Leonard Langman, a New York City physician, pled guilty
Health Care, LLC, was sentenced on April 19, 2011, for his           on July 6, 2011, to health care fraud. He was involved in
role in a scheme that fraudulently billed OWCP, Medicaid,            several fraud schemes, including billing for services not
Medicare, and private insurance carriers. Between August             rendered, double billing, and inflating charges to Medicare,
2003 and May 2008, Huang fraudulently billed various                 OWCP, the New York State Worker’s Compensation Board,
health plans more than $2,549,000 for physical therapy               the New York State Insurance Fund, and various private
treatments that never occurred. Huang was sentenced                  insurers. From January 2006 to December 2009, Dr.
to a year and one day in prison, three years’ supervised             Langman submitted fraudulent claims to the OWCP and
release, and 80 hours of community service per year for the          other entities for over $900,000. Pursuant to the plea
duration of the supervised release. He was also ordered              agreement, he agreed to forfeit $905,789.
to pay restitution of $2,549,977 and fined $50,000.
                                                                     This was a joint investigation with the USPS-OIG, HHS-OIG,
This was a joint investigation with the USPS, USPS-OIG,              and the New York State Worker’s Compensation Board.
HHS-OIG, and the FBI. United States v. Mark X. Huang (E.D.           United States v. Leonard Langman, M.D. (E.D. New York)
New York)




16     Semiannual Report to Congress: April 1 - September 30, 2011
                                Worker and Retiree Benefit Programs

Former Postal Employee Pleads Guilty To                        Psychologist Indicted in Medical Fraud
Theft of Government Funds                                      Scheme Involving Nearly $1 Million in
                                                               Bogus Treatment Costs
Shuntreciya Anderson, a former USPS employee, pled
guilty on April 26, 2011, to theft of government funds         A California psychologist was indicted on June 8, 2011,
and was sentenced on August 1, 2011, to three years’           for allegedly orchestrating a scheme to bill OWCP nearly
probation, 160 hours’ community service, and ordered to        $1 million for medical treatments to address fabricated
pay $171,993 in restitution. From January 2008 through         psychological conditions. The indictment charges the
November 2010, Anderson filed hundreds of medical travel       clinical psychologist with mail fraud. In addition, two ex-
refund requests with OWCP, claiming reimbursements for         postal workers were charged in the case for mail fraud
physician and rehabilitation appointments that she did         and for making false statements in order to obtain Federal
not attend or for which no associated costs were incurred.     employees’ compensation.
The investigation established that Anderson had only five
appointments during the filing period and, while receiving     From June 2000 through April 2008, the defendants
more than $170,000 in reimbursements, was entitled to          allegedly submitted fraudulent paperwork in order
only $175.                                                     to obtain compensation for medical visits that never
                                                               occurred. According to court documents, the psychologist
This was a joint investigation with the USPS-OIG. United       billed OWCP nearly $1 million in fraudulent medical fees
States v. Shuntreciya Anderson (N.D. Texas)                    and received about half that amount. The former postal
                                                               workers allegedly received more than $345,000 as a result
Former Postal Letter Carrier Pleads                            of the scheme.
Guilty to Theft of Worker’s Compensation
Funds                                                          The psychologist allegedly billed for in-person treatment
                                                               sessions for both postal workers during a period that
                                                               records indicate he was out of the country. According to the
Kendrick Hamilton, a former USPS letter carrier, pled guilty
                                                               indictment, one of the postal workers submitted fraudulent
on September 22, 2011, to theft of government funds for
                                                               paperwork to OWCP claiming she was unemployed and
defrauding OWCP. From January 2007 through November
                                                               had no income, when, in fact, she held various jobs. The
2010, the former letter carrier defrauded OWCP by filing
                                                               two former postal employees are also accused of seeking
falsified medical travel refund requests claiming mileage
                                                               reimbursement for travel to medical appointments that
for physician and rehabilitation appointments that he
                                                               never took place.
did not attend. The investigation established that, as a
result of this scheme, OWCP issued payments of $230,861
                                                               This is a joint investigation with Immigration and Customs
to the former letter carrier, who was not entitled to any
                                                               Enforcement (ICE), USPS-OIG, and the Office of Personnel
reimbursement.
                                                               Management-OIG. (C.D. California)

This is a joint investigation with the USPS-OIG. United
States v. Keldrick Hamilton (N.D. Texas)




                                                                Semiannual Report to Congress: April 1 - September 30, 2011   17
                                   Worker and Retiree Benefit Programs


             Energy Employees Occupational Illness
                  Compensation Act Program
     The Energy workers’ program was created to provide monetary compensation and medical benefits to civilian
  employees who incurred an occupational illness, such as cancer, as a result of their exposure to radiation or other
  toxic substances while employed in the nuclear weapons and testing programs of the U.S. Department of Energy and
  its predecessor agencies. In certain circumstances, these employees’ survivors may be eligible for compensation.


Colorado Man Indicted for Defrauding
Health Care Program

A Colorado health care provider was indicted on September
1, 2011, for health care fraud and money laundering for
his role in allegedly defrauding the Division of Energy
Employees Occupational Illness Compensation (DEEOIC)
of $3,417,346.

The health care provider was the owner of a business
that provided home services to eligible DEEOIC claimants.
From approximately June 2010 to June 2011, the provider
allegedly submitted bills to DEEOIC that claimed his
business provided home health care services to claimants
in excess of 24 hours per day, falsified nursing progress
notes attached as supporting documentation, and falsely
claimed that registered nurses provided home health care
services to claimants. In addition, the provider submitted
forged doctors’ orders that caused DEEOIC to authorize
round-the-clock, home health care for claimants.

This is a joint investigation with the FBI and IRS-Criminal
Investigation (CI). (D. Colorado)




18     Semiannual Report to Congress: April 1 - September 30, 2011
                               Worker and Retiree Benefit Programs


                 Unemployment Insurance Programs
    Enacted over 75 years ago as a Federal–state partnership, the unemployment insurance (UI) program is the
  Department’s largest income-maintenance program. While the framework of the program is determined by Federal
  law, the benefits for individuals are dependent on state law and are administered by State Workforce Agencies (SWAs)
  in 53 jurisdictions covering the 50 states, the District of Columbia, Puerto Rico, and the U.S. Virgin Islands, under the
  oversight of the Employment and Training Administration (ETA).


Former Texas Workforce Commission                                 Former State Employee and Two Associates
Employee Sentenced to Two Years in                                Plead Guilty to the Theft of California UI
Prison for Theft                                                  Funds

Sylvia Rodriquez, a former Texas Workforce Commission             Rebecca Stoneking, a former California Employment
(TWC) employee, was sentenced on April 19, 2011, to               Development Department (EDD) account technician, pled
two years in prison and three years’ supervised release. In       guilty on June 23, 2011, to conspiracy to commit mail fraud,
addition, she was ordered to pay restitution in the amount        for her role in a scheme to defraud the UI Program. Co-
of $262,909 and serve 250 hours of community service.             conspirator Russell Williams pled guilty on June 30, 2011,
From June 2007 until September 2009, while employed as            to the same charge.
a workforce development specialist, Rodriquez schemed
with several UI applicants by assisting them in filing            In her former position, Stoneking had access to EDD’s
fraudulent claims with fictitious employer information            employer database and the ability to adjust the base
for the purpose of obtaining UI benefits. In exchange,            wages of workers enrolled in California’s UI system. She
she received payments of $200 from each fraudulent UI             manipulated wage data submitted by Tower Records, a
benefit applicant. The scheme resulted in fraudulent UI           Sacramento firm that filed for bankruptcy protection in
benefit overpayments in the amount of $261,258.                   2006, by fraudulently entering Williams’ name in Tower
                                                                  Record’s quarterly reports to EDD. The illegal adjustment
This was a joint investigation with the TWC. United States        enabled Williams to file successful claims for UI benefits
v. Sylvia Andrea Rodriguez (W.D. Texas)                           to which he was not entitled. As a result of their scheme,
                                                                  Stoneking and Williams, along with Timothy Oller, an
                                                                  accomplice who previously pled guilty to the same charge,
                                                                  defrauded EDD of UI benefits totaling $92,826.

                                                                  This is a joint investigation with the California EDD
                                                                  Investigation Division. United States v. Rebecca Lynn
                                                                  Stoneking, Russell Edward Williams, and Timothy Jack
                                                                  Oller (E.D. California)




                                                                   Semiannual Report to Congress: April 1 - September 30, 2011   19
Employment and Training
      Programs




               Semiannual Report to Congress, Volume 62
                                    Employment and Training Programs


                                 Workforce Investment Act
    The primary goal of the Workforce Investment Act (WIA) is to consolidate, coordinate, and improve employment,
  training, literacy, and vocational rehabilitation programs in the United States. The Act provides funds to address the
  employment and training needs of adults, dislocated workers, and youth. Within each state, clusters of counties
  or other government entities—referred to as Local Workforce Investment Areas (local areas)—are responsible for
  establishing program policy and conducting program oversight.



Measuring the Effectiveness and Return on                            that almost 24 percent found jobs that were not related to
Investment of Training Services Funded                               the training they received; and for an additional 10 percent,
                                                                     sufficient evidence was not maintained in order to make
under the Adult and Dislocated Worker
                                                                     such a determination. Based on this, we estimated that up
Program
                                                                     to $124 million was spent on training participants who did
                                                                     not obtain training-related employment, or information
More than $2 billion is awarded annually in formula
                                                                     was insufficient to make that determination.
grants to SWAs to operate the WIA Adult and Dislocated
Worker programs. These programs provide for three levels
                                                                     Our results demonstrate that ETA is not in a position to
of services to participants: core, intensive, and training.
                                                                     report to stakeholders the outcomes and cost of training
We conducted a performance audit of training services
                                                                     services and areas that could be improved.
provided through the WIA Adult and Dislocated Worker
programs to determine: (1) if ETA had a comprehensive
                                                                     We also found that SWAs and local agencies lacked goals
performance accountability system to assess the programs’
                                                                     for placing exiters in training-related employment. Usable
effectiveness; (2) what the results were of the training
                                                                     and reliable information on training costs and training-
services provided; and (3) if the training services were
                                                                     related employment would assist ETA and the SWAs in
linked to demand occupations. The audit focused on
                                                                     determining how to best allocate decreasing WIA funds
the programs’ training services provided and outcomes
                                                                     to those services that will achieve the desired result of
achieved for 103,430 exiters from 20 SWAs between April
                                                                     enabling participants to pursue viable career paths leading
1, 2008, and March 31, 2009.
                                                                     to self-sufficiency. Such information would also improve
                                                                     accountability and transparency over WIA funds invested
Our audit found that WIA limits ETA’s ability to include
                                                                     in training participants.
results of training services in the WIA performance
accountability system. ETA’s system included performance
                                                                     We recommended that ETA: (1) pursue legislative authority
measures for reporting whether program exiters found
                                                                     in the WIA reauthorization to develop performance
and retained employment, but did not provide sufficient
                                                                     measures for training outcomes; (2) require SWAs to
information on the performance results of the training
                                                                     report training costs and funding sources at the participant
services. WIA does not allow ETA to establish any new
                                                                     level; (3) develop and provide guidance to SWAs and local
performance measures apart from the core employment
                                                                     agencies regarding the best methodology for collecting
indicators required. Our analysis of a statistical sample of
                                                                     and reporting data for training-related employment; and
305 program exiters, who obtained employment, showed
                                                                     (4) exercise oversight over SWAs to ensure they develop


22     Semiannual Report to Congress: April 1 - September 30, 2011
                                Employment and Training Programs

and/or identify best practices to increase the percentage    as ETA intended. This problem occurred because state
of exiters who find employment related to the training       agencies faced significant challenges to implement new
they receive. ETA did not believe the report put the         programs and spend Recovery Act funding quickly, while at
findings in the proper perspective and did not agree with    the same time experiencing staff shortages and furloughs.
the recommendations to pursue legislative authority          Moreover, not all state agencies receiving infrastructure
on performance measures for training outcomes and to         investment funding required Recovery Act contractors
collect training costs and funding sources. (Report No.      to post new jobs to the workforce development system’s
03-11-003-03-390, September 30, 2011)                        public jobs banks. The audit also noted that state recovery
                                                             task forces established to help coordinate these efforts
Recovery Act: Coordination of Workforce                      primarily focused their efforts on meeting OMB’s latest
Development Activities with Federal                          Section 1512 reporting requirements.

Infrastructure Investments
                                                             Finally, the audit found that as Federal, state, and local level
                                                             officials were not required to specifically track the impact of
DOL was provided funding from the American Recovery and
                                                             coordination efforts on the employment or re-employment
Reinvestment Act (Recovery Act) in order to provide worker
                                                             of individual participants, other than monitoring existing
training, among other things. In guidance provided to
                                                             program outcome measurements, they did not do so.
states and local workforce areas on the use of WIA funding
provided by the Recovery Act, ETA strongly recommended
                                                             The audit recommended that ETA continue to strengthen
collaboration between the public workforce investment
                                                             its cross-collaboration efforts across Federal and state
system and other Federal agencies that received those
                                                             agencies and encourage states and local areas to continue
funds. An audit was conducted to review the coordination
                                                             to pursue collaboration as part of their regular practice.
activities that were planned and conducted at the Federal,
                                                             ETA agreed with our recommendation and provided
state, and local levels.
                                                             examples of how it is moving in a direction consistent
                                                             with the recommendation. (Report No. 18-11-010-03-
The audit found that ETA promptly provided guidance
                                                             001, September 30, 2011)
and strategies to the workforce system to link to Federal
infrastructure investments. ETA performed “readiness
reviews” of all states and 153 local entities to encourage
                                                             Company Officer Pleads Guilty to
coordination with other Federal agencies. ETA also entered   Embezzlement of Federal Job Training
into two agreements with three other Federal agencies        Funds
receiving Recovery Act infrastructure investment funds.
However, because implementation of these planning            Trudy Zimmerman, a fiscal officer of La Cooperative
efforts was generally informal and not well coordinated,     Campesina de California (LCCC), pled guilty on August 8,
they produced uneven results. Additionally, we found that    2011, to theft of government property. LCCC is a grantee
two of the agreements between DOL and other Federal          of WIA funds. From 2005 to 2009, Zimmerman devised a
agencies were never implemented as planned, although         scheme to embezzle more than $58,000 in WIA and HHS
four collaborative projects related to infrastructure        funds from LCCC by creating bogus travel vouchers and
investments did occur.                                       forging LCCC reimbursement checks to herself. United
                                                             States v. Trudy Zimmerman (E.D. California)
The audit also found that planned coordination activities
and cross collaboration did not happen across-the-board

                                                              Semiannual Report to Congress: April 1 - September 30, 2011   23
                                    Employment and Training Programs

WIA Grantee Employee Indicted for
Embezzling Job Training Funds

An employment specialist at La Familia Counseling Center
(LFCC)—a WIA grantee—was indicted on June 16, 2011, for
embezzlement of ETA funds. The scheme allegedly involved
the employee using her position at LFCC to embezzle
WIA funds by creating false on-the-job-training contracts
between LFCC and local employers. These false contracts
made it appear that individuals were employed and paid
wages by the employers when, in fact, such individuals
were never participants in legitimate WIA training
programs. The employee also created false participant
timesheets, employer reimbursement invoices, and other
related documents to fraudulently collect approximately
$30,000 in WIA funds.

This is a joint investigation with the California EDD
Investigation Division. (E.D. California)




24     Semiannual Report to Congress: April 1 - September 30, 2011
                                Employment and Training Programs


                                                 Green Jobs
    The Green Jobs Innovation Fund was authorized under WIA to help workers receive job training in green industry
  sectors. As part of the Recovery Act, the Department received $500 million for competitive grants to fund projects
  for research, labor exchange, and job training projects that prepare workers for careers in the energy efficiency and
  renewable energy industries.


Recovery Act: Slow Pace Placing Workers                        defined are new or unique occupations; green jobs, as
into Jobs Jeopardizes the Employment                           defined by ETA, may build upon existing occupations.

Goals of the Green Jobs Program
                                                               Of the $500 million provided by the Recovery Act, ETA
                                                               retained $9.9 million for services, such as program
The Recovery Act provided $500 million for research, labor
                                                               administration and technical assistance, and awarded
exchange, and job training projects that prepare workers
                                                               $490.1 million as follows: $435.4 million for three training
for careers in energy efficiency and renewable energy.
                                                               programs, $48.9 million for labor market information,
The purpose of the Recovery Act was to assist those most
                                                               and $5.8 million to develop capacity. As of June 30, 2011,
impacted by the recession and to expend funds as quickly
                                                               grantees reported expending $162.8 million (33 percent)
as possible consistent with prudent management. ETA
                                                               of the amounts awarded, with about 73 percent of the
awarded these funds under different types of competitive
                                                               grant time having elapsed. Training grantees reported
grant programs to train and prepare individuals for careers
                                                               expenditures of $126.1 million (29 percent) of the amount
in “green jobs” and collect, analyze, and disseminate
                                                               awarded with 61 percent of the grant periods having
labor market information. ETA awarded these grants in
                                                               elapsed; non-training grantees reported expenditures
December 2009 and January 2010, with grant end dates
                                                               of $36.7 million (67 percent) of the amount awarded,
spanning from November 2010 through January 2013.
                                                               although 95 percent of the grant periods have elapsed.

In response to a Congressional request, we conducted an
                                                               Grantees also reported serving 52,762 participants (42
audit of ETA’s green jobs program to determine: how ETA
                                                               percent) of the program’s target of serving 124,893
defined green jobs; the status of funds expended; how
                                                               participants, with 61 percent of training grant periods
grant funds have been used; the extent to which ETA and
                                                               having elapsed. Grantees reported placing 8,035
grantees have reported achieving performance targets
                                                               participants into employment (10 percent) of the target
for training and placement of workers; and employment
                                                               of 79,854 placements. Of the 52,762 participants served,
retention.
                                                               grantees reported that 20,818 (39 percent) were individuals
                                                               who already had jobs and had enrolled in training in order
The definition used by ETA to award grants was derived
                                                               to retain their jobs, obtain new work, or otherwise upgrade
from the Green Jobs Act of 2007 that covered the seven
                                                               their skills.
green job industries, and broadly included jobs that clean
and enhance the environment. Specifically, green jobs
                                                               Training grantees reported that 1,336 participants retained
were defined as jobs associated with products and services
                                                               employment for at least six months – or two percent of the
that use renewable energy resources, reduce pollution,
                                                               employment retention goal of 69,717. The low retention
and conserve natural resources. Not all green jobs so

                                                                 Semiannual Report to Congress: April 1 - September 30, 2011   25
                                     Employment and Training Programs

rate may be attributable in part to the timing of the
placements reported. Nevertheless, the low retention
rate raises concerns that original goals may not be reached
before the grant period expires.

We recommended that ETA take actions to evaluate the
green jobs program; and in doing so, obtain a current
estimate of the green jobs funds each grantee requires,
which will aid in assessing the need for the remaining
$327.3 million of unspent grant funds. Ultimately, if
grantees fail to utilize their Recovery Act funding, ETA
should terminate the grants and return the funds to the
Treasury. ETA disagreed with the OIG’s conclusion and
expects performance to significantly increase. ETA stated it
is reviewing the progress of these grants on a monthly basis
and has a technical assistance program in place to assist
grantees in expediting these programs. ETA’s intention is
that all funds will be expended by September 30, 2013, or
reclaimed to the extent permitted by law, as required by
OMB. However, ETA did not provide evidence to support
its assertion that grantees will effectively use the funds and
deliver targeted employment outcomes by the end of the
grant periods. (Report No. 18-11-004-03-390, September
30, 2011)




26      Semiannual Report to Congress: April 1 - September 30, 2011
                                 Employment and Training Programs

                                                    Job Corps
    Job Corps, which is under the oversight of ETA, annually provides education, vocational training, and support services
  to approximately 60,000 students at 125 nationwide centers, which are residential and non-residential. Its primary
  purpose is to help at-risk youth become more employable, responsible, and productive citizens. Job Corps’ budget for
  program year (PY) 2010 was approximately $1.71 billion.


Job Corps Needs to Improve the Reliability                       an overstatement of 7,517 (42.3 percent) of the 17,787
of Performance Metrics and Results                               matches reported for the periods reviewed. Specifically,
                                                                 3,226 of these matches either did not relate or poorly
                                                                 related to the vocational training received (e.g., students
Our audit objective was to determine the extent to which
                                                                 trained in office administration placed in fast food
Job Corps has metrics in place to assess the program’s
                                                                 restaurants); and another 4,291 matches that represented
performance. Our scope covered Job Corps’ performance
                                                                 enrollments in post-secondary education and training
metrics and outcomes for PY 2009 and the month of
                                                                 (3,778) and military enlistments (513), regardless of the
October 2010.
                                                                 students’ vocational training and assigned duties. We
                                                                 also noted that 1,569 students were placed in jobs that
While Job Corps had 58 performance metrics in place,
                                                                 required little or no previous work-related skills, knowledge
these metrics did not always provide a clear and accurate
                                                                 or experience, such as parking lot attendants, janitors, and
assessment of the program’s performance. In aggregate,
                                                                 dishwashers.
we found reporting deficiencies with 22 of the 58 metrics;
including 10 with multiple deficiencies. Specifically, Job
                                                                 Job Corps stated that it believes it has taken steps to address
Corps reported inaccurate results (9 metrics); did not report
                                                                 invalid job training matches, such as the development of a
results and/or establish performance targets (4 metrics);
                                                                 job training match crosswalk. Job Corps also indicated that
or did not publish results and make them publicly available
                                                                 it believes military and educational placements are valid
as asserted in its response to our March 2009 report on
                                                                 training matches that serve to incentivize placements that
non-compliance with the Workforce Investment Act of
                                                                 could lead Job Corps graduates to higher wage employment.
1998 (WIA) reporting requirements (19 metrics). Thus,
                                                                 Job Corps disagreed with our finding regarding placement
Job Corps and other decision-makers (e.g., Congress, ETA)
                                                                 of students in jobs that require little or no training may
did not always have complete and accurate performance
                                                                 not have been the best use of its resources, stating that
information on which to base effective decision-making.
                                                                 many students have significant basic skills and behavioral
                                                                 deficiencies, and lack the skills and knowledge to gain
The reliability of the metrics covering two key performance
                                                                 and retain employment, particularly during the current
areas – job training match and cost efficiency – has been
                                                                 economic downturn.
a longstanding concern. While our audit noted that Job
Corps has made some improvements, such as reducing
                                                                 In addition, there were numerous problems with Job Corps’
the number of allowable broad placement categories
                                                                 approach for calculating its cost efficiency metric, or cost
that were considered matches for several vocations,
                                                                 per participant ($26,551 for PY 2009), which Job Corps
reliability problems persist. For example, problems with
                                                                 derived by dividing a portion of its appropriated expenses
how Job Corps calculated its job training matches led to


                                                                  Semiannual Report to Congress: April 1 - September 30, 2011   27
                                     Employment and Training Programs

by the number of new participants over the course of a                responsibilities, and will continue to closely monitor
program year. The metric did not reflect outcomes such as             consultants’ and committees’ work in assessing Job Corps.
job placement or training completion, excluded program                (Report No. 26-11-004-03-370, September 30, 2011)
administration expenses, and could inaccurately show
acceptable or improved performance when program                       Job Corps Must Strengthen Controls
performance is actually declining. For example, increases             to Ensure Low-Income Eligibility of
in new participants due to a higher number of drop-outs
                                                                      Applicants
would inaccurately reflect improvements in Job Corps’
cost efficiency results because costs per participant
                                                                      Secretary Solis requested an audit of the Office of Job
would decrease. Our analysis of available Job Corps
                                                                      Corps’ outreach and admissions process after ETA found
data for PY 2009 showed many alternate cost efficiency
                                                                      that a service provider had admitted ineligible students at
metrics based on planned enrollment or outcomes, such
                                                                      the Gadsden Job Corps Center in Alabama. We conducted
as cost per training slot utilized ($37,880, if all slots are
                                                                      a performance audit to determine whether Job Corps
fully utilized), cost per successful outcome ($42,952), or
                                                                      ensured outreach and admissions service providers enroll
cost per job placement ($76,574). These metrics could
                                                                      only eligible students. We reviewed 86 contracts with
provide decision-makers with more reliable information
                                                                      31 contractors who provided outreach and admissions
to measure and manage the program’s performance and
                                                                      services to 57,392 students enrolled at Job Corps centers in
costs.
                                                                      calendar year (CY) 2010, as well as 5,504 students enrolled
                                                                      in March 2011.
Since 2007, DOL has spent almost $1.5 million on
consultants and an advisory committee to improve Job
                                                                      Our audit found that Job Corps did not ensure that
Corps’ performance metrics and outcomes, as well as other
                                                                      outreach and admissions service providers enrolled only
aspects of the program. However, many of the concerns
                                                                      eligible students because of significant and systemic control
related to performance metrics persist.
                                                                      weaknesses at both the Job Corps and contractor levels.
                                                                      Job Corps policy allowed potential students to self-certify
We recommended that Job Corps improve the reliability
                                                                      their family income levels. Further, admission counselors
of its performance metrics, especially job training match
                                                                      obtained income documentation from potential students
and cost efficiency, so decision-makers will be able to make
                                                                      only if what students provided verbally was questionable
informed decisions regarding the program’s performance
                                                                      or the potential student’s social security number ended
and costs. We also recommended that Job Corps improve
                                                                      in one of five, two-digit sequences. The latter criterion
oversight of its service providers to increase the number
                                                                      resulted in requiring documentation from 5 percent of
of students who find employment that relates to and
                                                                      applicants to verify reported income. As a result of these
utilizes the vocational training received; and develop a
                                                                      insufficient enrollment procedures, ineligible students
process to maximize the value, and assess and manage
                                                                      took slots intended for at-risk and low-income youth.
the risks, of costly initiatives and evaluations to ensure
such investments result in meaningful improvements.
                                                                      Based on our statistical sample of the 5,504 students
Job Corps stated that in FY 2012 it will make performance
                                                                      enrolled at Job Corps centers in March 2011, we estimated
outcomes more transparent to stakeholders and the
                                                                      that 472 ineligible students enrolled in the program during
public by publishing additional performance metrics, as
                                                                      that month, and $13.9 million in DOL funds would be spent
well as an annual report on metrics required by WIA, will
                                                                      to train them. Job Corps will enroll nearly 56,000 students
reiterate its policies and procedures regarding oversight
                                                                      in CY 2011. Job Corps has begun making changes to its

28      Semiannual Report to Congress: April 1 - September 30, 2011
                                  Employment and Training Programs

student enrollment process — including an enhanced               Contractors Did Not Ensure Best Value in
low-income eligibility verification process, elimination         Awarding Subcontracts at Two Job Corps
of income self certification, and requirement of income
                                                                 Centers
documentation from all potential students. If its recent
and planned changes are not effectively implemented,
                                                                 Job Corps center contractors are required to comply with
we expect ineligible students will continue to be enrolled
                                                                 specific Federal Acquisition Regulation (FAR) requirements
throughout the year. Assuming the ineligibility rate remains
                                                                 for obtaining price quotes and competing and awarding
constant, the estimate of potential funds that would be
                                                                 subcontracts to ensure the Federal government receives
spent on ineligible students could total $165.1 million.
                                                                 the best value. The FAR further requires that contractors’
                                                                 past performance be evaluated and that records be
Our testing also found that even when potential students
                                                                 maintained to demonstrate claimed costs have been
self-certified income over the established thresholds
                                                                 incurred. We conducted performance audits of two Job
or did not meet other eligibility criteria, outreach and
                                                                 Corps Centers operated by two different companies under
admissions service providers still allowed them to enroll.
                                                                 contract with the Office of Job Corps — Turner Center
This occurred because some outreach and admissions
                                                                 under Education and Training Resources (ETR) and Red
service providers disregarded or were not aware of the
                                                                 Rock Center under Adams and Associates — to determine
appropriate income eligibility thresholds and Job Corps
                                                                 if the contractors awarded subcontracts and claimed costs
had not provided adequate procedures, training, and
                                                                 in accordance with the FAR.
oversight to ensure their compliance. Based on our
statistical sample of students enrolled during CY 2010, we
                                                                 Our audits found that subcontracts were improperly
estimated that outreach and admissions service providers
                                                                 awarded because of noncompliances with the FAR.
did not comply with Job Corps’ outreach and admissions
                                                                 Specifically, neither Center performed cost or price
eligibility requirements for 614 (1.1 percent) to as many
                                                                 analyses and responsibility checks of past performance.
as 1,527 (2.7 percent) of the 57,392 students enrolled
                                                                 Because the subcontracts were for physician, mental
during the year. We further estimated that between
                                                                 health, and drug assessment and interdiction services for
$18.4 million and $45.7 million in DOL funds were spent
                                                                 students, it was critical for the contractors to ensure their
to train these students.
                                                                 students received adequate care and training by evaluating
                                                                 bids based on the quality of services to be provided as
We made five recommendations to ETA and the Office
                                                                 well as cost. ETR and Adams and Associates disagreed
of Job Corps. Our key recommendations included: (1)
                                                                 with our findings, stating that the FAR pertains to contract
requiring Job Corps to determine the eligibility of all active
                                                                 award decisions by government contracting officers, but
students with recorded family incomes over the established
                                                                 not government contractors awarding subcontracts. ETA
income thresholds and take appropriate action; (2) recover
                                                                 stated that center operators are subject to some, but not
program funds from outreach and admissions service
                                                                 all, FAR requirements.
providers that were spent on ineligible students; and
(3) develop policies, procedures, training, and oversight
                                                                 OIG recommendations included that: (1) ETA recover
to ensure outreach and admissions service providers
                                                                 questioned costs as appropriate; (2) direct the contractors
comply with established eligibility criteria and other Job
                                                                 to establish procedures, training, and oversight to ensure
Corps policies for program enrollment. ETA accepted our
                                                                 compliance with applicable sections of the FAR; (3) direct
recommendations, but disagreed with our methodology
                                                                 ETA contract personnel and Job Corps regional staff to
to estimate the cost to train ineligible students. (Report
                                                                 review all future subcontracts for FAR compliance and
No. 26-11-005-03-370, September 30, 2011)
                                                                  Semiannual Report to Congress: April 1 - September 30, 2011   29
                                    Employment and Training Programs

approval prior to award; and (4) review ETR corporate
contracts to determine if they are in compliance with
applicable sections of the FAR. In response to the
draft report, ETA stated that it had recently completed
contracting purchasing system reviews at ETR and Adams
and Associates and recommended that both improve
their procurement procedures and provide appropriate
procurement training to their staff. (Report Nos. 26-11-003-
03-370 and 26-11-002-03-370, September 30, 2011)




30     Semiannual Report to Congress: April 1 - September 30, 2011
                                 Employment and Training Programs

                  High Growth Job Training Initiative
    The High Growth Job Training Initiative (HGJTI) prepares workers to take advantage of new and increasing job
  opportunities in high-growth, high-demand, and economically vital sectors of the economy.


Audit of High Growth Job Training Initiative                   proper planning, management, and completion of the
Grant Awarded to the International                             project described in the grant agreement. Furthermore,
                                                               the grant also lacked clarity regarding the relationship
Association of Nanotechnology
                                                               between the grantee and training provider, as well as the
                                                               association between cost categories and deliverables. This
In response to a request from ETA, we conducted a
                                                               had led to difficulties in monitoring grant performance.
performance audit of its $1.5 million HGJTI grant with the
International Association of Nanotechnology (IANANO).
                                                               We recommended that ETA recover questioned costs of
HGJTI was a strategic effort to prepare workers to take
                                                               $1.5 million, ensure that first-time grantees have systems
advantage of new and increasing job opportunities in high-
                                                               in place to provide grant products and services, and ensure
growth, high-demand, and economically vital sectors of
                                                               grants are clear regarding entities that provide services
the American economy. One of the sectors identified was
                                                               and cost category associated with deliverables. IANANO
advanced manufacturing, in which innovative strategies
                                                               disagreed with our audit findings, but did not provide
were needed to compete in the global marketplace. Our
                                                               the necessary support to effect changes to the findings
audit objectives were to determine whether: financial
                                                               and recommendations. ETA responded that it will follow
transactions and program activities were in accordance
                                                               standard audit resolution procedures for disallowing and
with the grant agreement and Federal cost principles;
                                                               recovering questioned costs. ETA also indicated that it
information that IANANO reported to ETA was accurate;
                                                               will review procedures regarding new grantees, grant
and grant terms for expenditures and deliverables were
                                                               award and budget process, and will make changes where
clearly defined.
                                                               appropriate and feasible. (Report No. 02-11-203-03-390,
                                                               September 12, 2011)
Our audit found that IANANO did provide some services
to participants; however, it could not demonstrate that it
provided $2,438,685 worth of benefits to ETA — the full
$1.5 million of grant funds and $938,685 of program income
that was not reported but should have been committed to
the project. IANANO’s financial transactions and program
activities did not comply with the grant agreement and
Federal cost principles, and were not accurately reported
to ETA. Specifically, $896,066 of personnel costs charged to
the grant were unsupported; reported outcome measures
were misleading; and required grant deliverables were
not developed or provided, were incomplete, or were
otherwise inadequate. This occurred because IANANO
misrepresented that it had systems in place to ensure


                                                                Semiannual Report to Congress: April 1 - September 30, 2011   31
                                    Employment and Training Programs


                Foreign Labor Certification Programs
    ETA administers a number of foreign labor certification (FLC) programs that allow U.S. employers to employ
  foreign workers to meet American worker shortages. The H-1B visa specialty workers’ program requires employers
  that intend to employ foreign specialty occupation workers on a temporary basis to file labor condition applications
  with ETA stating that appropriate wage rates will be paid and that workplace guidelines will be followed. The H-2B
  program establishes a means for U.S. nonagricultural employers to bring foreign workers into the United States to
  meet temporary worker shortages. The Permanent Foreign Labor Certification program allows an employer to hire
  a foreign worker to work permanently in the United States.


Two Business Owners Sentenced to Prison                              Wife of Former DHS Official Sentenced
for Visa Fraud                                                       for Her Role in Filing Fraudulent Labor
                                                                     Certifications
Fazal Mehmood and Vineet Maheshwari, the owners of
Worldwide Software Services, Inc., were sentenced on                 Maria Kallas, the wife of a former DHS official, was
April 20, 2011, for conspiracy to commit visa fraud, making          sentenced on June 2, 2011, to four years in prison and
false statements to the United States, and for engaging              two years’ supervised release for her role in assisting her
in monetary transactions in criminally derived property.             husband in defrauding the FLC process.
Both received a sentence of three years and four months in
prison on each count to run concurrently, and three years’           On March 21, 2011, Kallas’ husband, Constantine Peter
supervised release. The defendants were also ordered                 Kallas, the former Assistant Chief Counsel at ICE, was
to forfeit more than $2.8 million in proceeds from the               sentenced to more than 17 years in prison for conspiring
fraud.                                                               to defraud the FLC process and, in a separate scheme,
                                                                     making false statements to obtain FECA benefits. Mr.
Mehmood and Maheshwari, Pakistan and Indian nationals,               Kallas was convicted in April 2010 of three dozen felony
respectively, pled guilty in April 2010 to conspiring to use         counts, including conspiracy, bribery, obstruction of justice,
their company to provide numerous false documents                    fraud and misuse of entry documents, aggravated identity
to DOL and DHS in order to sponsor foreign workers                   theft, making false statements to DOL, making false
under the H-1B visa program. The defendants conceded                 statements to obtain Federal employee compensation,
that the conspiracy involved more than 100 false                     and tax evasion. Mrs. Kallas’ pled guilty to conspiracy,
documents and that each had a role in the offenses.                  bribery, and conspiracy to commit money laundering in
                                                                     November 2009.
This was a joint investigation with the FBI, Immigration
and Customs Enforcement (ICE), IRS-CI, Social Security               In the FLC scheme, the couple accepted approximately
Administration (SSA)-OIG, and Clinton Police Department.             $425,854 in bribes to illegally adjust the immigration status
United States v. Fazal Mehmood, et al. (S.D. Iowa)                   of foreign nationals. They utilized the identities of three
                                                                     inactive companies to falsely petition on behalf of foreign
                                                                     nationals for employment-based visas. From 2005 to 2007,



32     Semiannual Report to Congress: April 1 - September 30, 2011
                                 Employment and Training Programs

the defendants filed several false applications with ETA
and DHS Citizenship and Immigration Services, charging
up to $20,000 per petition.

This was a joint investigation with the FBI, DHS-Homeland
Security Investigations (HSI), and IRS-CI. United States v.
Maria Gabriela Kallas (C.D. California)


Visa Fraud Conspirators Plead Guilty

Jose Vicharelly and Irma Vicharelly each pled guilty on
September 15, 2011, to conspiracy to commit visa fraud.
Additionally, Jose Vicharelly pled guilty to conspiracy to
encourage foreign nationals to illegally enter and reside
in the United States.

The Vicharellys, Pedro Saul Ocampo, Rene Morales,
Servando Gonzalez, and Angela Faulk, pled guilty between
July and September 2011 to conspiracy to commit visa
fraud. The conspirators were all officers and employees of
Texas Staffing Resources (TSR), a temporary labor leasing
company.

The defendants’ pleas resulted from their involvement
in a scheme in which they fraudulently petitioned for
H-2B visas on behalf of employers supposedly seeking
contract foreign labor. By filing falsified H-2B related
documents and government forms with DOL, DHS, and the
U.S. Department of State for more employees than were
needed or wanted by employers, TSR attained a surplus of
approved H-2B visas. The defendants then sold the surplus
visas to undocumented Mexican nationals for $1,500 or
$2,500 each. The employers, whose identities were used
in the scheme, were unaware of the falsified petitions
filed in their names.

This is a joint investigation with the DHS-HSI. United States
v. Jose Ramiro Vicharelly, Irma Lopez Vicharelly, Angela
Paola Faulk, Pedro Saul Ocampo Munguia, Servando
Gonzalez, Jr. (W.D. Texas)



                                                                Semiannual Report to Congress: April 1 - September 30, 2011   33
Labor Racketeering




             Semiannual Report to Congress, Volume 62
                                          Labor Racketeering
    The OIG at DOL has a unique programmatic responsibility to investigate labor racketeering and/or organized crime
  influence involving unions, employee benefit plans, and labor-management relations. The Inspector General Act of
  1978 transferred responsibility for labor racketeering and organized crime-related investigations from the Department
  to the OIG. In doing so, Congress recognized the need to place the labor racketeering investigative function in an
  independent law enforcement office free from political interference and competing priorities. Since the 1978 passage
  of the Inspector General Act, OIG special agents, working in association with the Department of Justice’s Organized
  Crime and Gang Section, as well as various U.S. Attorneys’ Offices, have conducted criminal investigations to combat
  labor racketeering in all its forms.


Labor racketeering relates to the infiltration, exploitation, and/or control of a union, employee benefit plan, employer
entity, or workforce. It is carried out through illegal, violent, or fraudulent means for profit or personal benefit.

Labor Racketeering and organized crime groups have been involved in benefit plan fraud, violence against union members,
embezzlement, and extortion. Our investigations continue to identify complex financial and investment schemes used to
defraud benefit fund assets, resulting in millions of dollars in losses to plan participants. The schemes include embezzlement
or other sophisticated methods, such as fraudulent loans or excessive fees paid to corrupt union and benefit plan service
providers. OIG investigations have demonstrated that abuses involving service providers are particularly egregious due
to their potential for large dollar losses and because the schemes often affect several plans simultaneously. For example,
benefit plan service providers, including accountants, attorneys, contract administrators, and medical providers, as well
as corrupt union officials, plan representatives, and trustees, continue to be a strong focus of OIG investigations. The OIG
is committed to safeguarding American workers from being victimized through labor racketeering and/or organized crime
schemes.

Labor racketeering impacts American workers, employers, and the public through reduced wages and benefits, diminished
competitive business opportunities, and increased costs for goods and services.

The following cases are illustrative of our work in helping to eradicate both traditional and nontraditional labor racketeering
in the nation’s labor unions, employee benefit plans, and workplaces.




36     Semiannual Report to Congress: April 1 - September 30, 2011
                                               Labor Racketeering

                   Labor-Management Investigations
    Labor-management relations cases involve corrupt relationships between management and union officials. Typical
  labor-management cases range from collusion between representatives of management and corrupt union officials,
  to the use of the threat of “labor problems” to extort money or other benefits from employers.


Former Illinois Governor Blagojevich                           Michael Forde, former executive secretary-treasurer and
Convicted on Corruption Charges                                lead defendant in the case, was previously sentenced
                                                               to 11 years in prison and ordered to pay $5.7 million in
                                                               restitution to the DCC on April 25, 2011. John Greaney,
Rod Blagojevich, the former Illinois Governor, was
                                                               former Local 608 business manager, was sentenced on
convicted on June 27, 2011, on 10 counts of wire fraud, two
                                                               June 17, 2011, to one year and one day in prison. He was
counts of attempted extortion, one count of solicitation
                                                               also ordered to pay $4.9 million in restitution jointly and
of a bribe, two counts of extortion conspiracy, and two
                                                               severally with co-defendants, Forde and Brian Hayes, who
counts of solicitation conspiracy. The wire fraud conviction
                                                               were sentenced in a previous reporting period. Others
included two counts in which he engaged in telephone
                                                               also sentenced in this reporting period were:
conversations with a union official. During the calls, he
attempted to obtain employment for himself or his wife
                                                               • Michael Mitchell, a former United Brotherhood
with a not-for-profit group comprising seven unions that
                                                                 of Carpenters and Joiners of America (UBCJ) shop
organize campaigns to promote unions’ interests, in
                                                                 steward, who was sentenced on April 1, 2011, to five
exchange for a Senate appointment.
                                                                 years in prison and two years of supervised release,
                                                                 and ordered to pay $52,434 in restitution. Similarly,
This was a joint investigation with the FBI, IRS-CI, and
                                                                 Matthew Kelleher, a UBCJ member, was sentenced on
USPIS. United States v. Blagojevich (N.D. Illinois)
                                                                 September 6, 2011, to two years’ supervised release.
                                                               • Joseph Olivieri, a former director of the Association
Over $20 Million in Restitution and
                                                                 of Wall-Ceiling and Carpentry Industries (an employer
Forfeiture Ordered for Six Sentenced in                          association) and a trustee of the District Council of
Carpenter’s Union Case                                           Carpenters’ benefit funds, who was sentenced on June
                                                                 3, 2011, to one year and six months in prison and three
The District Council of Carpenters (DCC) oversees 10 local       years’ supervised release.
unions in the New York City area with more than 20,000         • James Murray, the owner of On Par Construction,
members. These convictions and sentences resulted                who was sentenced on April 7, 2011, to one
from the prohibited payments by contractors to union             year of supervised release and ordered to forfeit
officials who permitted abrogation of the CBAs by allowing       $10.5 million.
underpayments of contributions to the union-sponsored          • Finbar O’Neill, a contractor and owner of One Key,
benefit plans, resulting in financial harm to the union          who was sentenced on August 19, 2011, to five years’
members.                                                         supervised release and ordered to pay $112,704 in
                                                                 restitution and $325,000 in forfeiture.



                                                                Semiannual Report to Congress: April 1 - September 30, 2011   37
                                                    Labor Racketeering

Additionally, Lawrence Pesce, a construction manager
for a local college, was sentenced on August 3, 2011, to
three years in prison, two years’ supervised release, and
ordered to pay $2.5 million in restitution and $1 million in
forfeiture. Pesce was convicted for requiring a contractor
to inflate its bid on a college construction project by
$2 million and kickback the equivalent in cash and property
to him.

This was a joint investigation with the FBI. United States
v. Michael Forde, et al. (S.D. New York)


Genovese Soldier Sentenced to Prison

Stephen Depiro, a soldier in the Genovese La Cosa Nostra
family, was sentenced on September 21, 2011, to two years
and nine months in prison, to be followed by three years’
supervised release. He pled guilty on June 17, 2011, to
the charge of conspiracy to harbor a person from arrest.
From May 2004 to March 2007, he aided Michael Coppola,
a captain in the Genovese family and fugitive from justice.
Prior to his capture in 2009, Coppola was charged and
convicted at trial in another OIG case for engaging in
33 years of extortionate control over Local 1235 of the
International Longshoremen’s Union.

Prior to his guilty plea of conspiracy to harbor a
person from arrest, Depiro was charged, along with
17 others, in January. The investigation alleged
numerous violations, including RICO charges.

This is a joint investigation with the FBI. United States v.
Depiro (E.D. New York)




38     Semiannual Report to Congress: April 1 - September 30, 2011
                                               Labor Racketeering

                            Benefit Plan Investigations
    The OIG is responsible for combating corruption involving funds in employee benefit plans. These pension plans and
  health and welfare benefit plans comprise hundreds of billions of dollars in assets. Our investigations have shown
  that these assets remain vulnerable to labor racketeering schemes and/or organized crime influence. Benefit plan
  service providers, including accountants, actuaries, attorneys, contract administrators, investment advisors, insurance
  brokers, and medical providers, as well as corrupt union officials, plan representatives, and trustees, continue to be
  a strong focus of OIG investigations.

Former Plumbers Union Worker Sentenced                          Former Leader of the Michigan Council
to Three Years for Embezzling Funds and                         of Carpenters Union Enters Guilty Plea
Dues                                                            Involving Union Pension Fund

April Franklin, a former bookkeeper for United Association      Walter Mabry, a former executive secretary-treasurer of the
of Plumbers and Pipe Fitters (UA) Local 333, was sentenced      Michigan Regional Counsel of Carpenters and Millwrights
on July 25, 2011, to three years and six months in prison,      and former Board Chairman to the Carpenter’s Pension
three years’ supervised release, 300 hours of community         Trust Fund – Detroit and Vicinity, pled guilty on May 10,
service, and restitution in the amount of approximately         2011, to taking kickbacks in connection with his position as
$412,000 to the UA.                                             head of the Union and Chairman of the Board of Trustees of
                                                                the Carpenters Pension Trust Fund. He admitted to receipt
Franklin pled guilty on April 7, 2011, to theft from an         of approximately $10,000 in hotel and dining expenses
employee benefit plan and embezzlement of labor                 from Joseph Jewett and John Orecchio between April 2004
organization assets. The charges stemmed from her theft         and September 2006.
of union funds during her employment with the Local 333.
An audit that led to a subsequent criminal investigation        Orecchio was an executive at AA Capital Partners, which
revealed that Franklin, while employed by Local 333, issued     was an investment manager for the Carpenters’ Pension
checks to herself for payment of personal expenses.             Trust Fund. Jewett was a consultant hired by AA Capital
                                                                Partners in connection with a $70 million investment by
Between 2003 and 2009, Franklin admitted to stealing            the pension fund in the construction of a gambling casino
over $371,093 from an account held by the Local 333             in Biloxi, Mississippi. In order to obtain the $70 million
Joint Apprenticeship and Training Fund, an employee             investment from Mabry, Orrechio was required to hire
welfare benefit fund. Additionally, she admitted to stealing    Jewett as a casino consultant. Orrechio, Jewett, and Mabry
approximately $40,000 in cash dues that were paid to            agreed to split proceeds of the AA Capital Partners casino
the union by its members. Franklin falsified the union’s        investment, backed by the pension fund.
accounting records to hide the thefts from co-workers
and the auditor.                                                In a separate action, Jewett was convicted of promising
                                                                to give a $266,000 kickback to Mabry, because Mabry
This was a joint investigation with EBSA and the Office         caused Orecchio to hire Jewett as a consultant on the
of Labor-Management Standards. United States v. April           casino investment.
Franklin (W.D. Michigan)

                                                                  Semiannual Report to Congress: April 1 - September 30, 2011   39
                                                    Labor Racketeering

This is a joint investigation with the FBI and EBSA.                 From March 2006 through August 2006, Zavidow, contrary
Investigative assistance was provided by the Nevada                  to his fiduciary duties, knowingly embezzled approximately
Gaming Commission and Securities Exchange Commission.                $263,000 belonging to an ERISA-covered employee benefit
United States v. Walter Ralph Mabry (E.D. Michigan)                  plan by issuing checks to himself and other family members
                                                                     for personal use. He carried out this scheme by depositing
Former Office Manager of Union Fund                                  checks into his wife’s bank account; cashing checks at a
Pleads Guilty to Embezzling                                          check-cashing location; and funneling plan assets into
                                                                     various other corporations with which he was affiliated.
                                                                     Zavidow eventually depleted the plan of all its assets. In
Theresa Waters, a former administrative assistant and
                                                                     addition, in October 2007, Zavidow declared that he had
office manager to the South Central Laborers Training
                                                                     zero taxable income in 2006 when, in fact, he received
and Apprenticeship Fund (SCLTAF), pled guilty on April 18,
                                                                     approximately $263,000 from the plan.
2011, to embezzlement from an employee benefit plan.
SCLTAF is a welfare plan arrangement and is funded by
                                                                     At the time of the criminal complaint, filed on August
various union contractors throughout the states of Texas,
                                                                     5, 2010, the Plan had 129 participants, of which
Louisiana, Arkansas, Mississippi, and Oklahoma.
                                                                     approximately 29 were eligible to retire and receive
                                                                     benefits. However, the plan’s account balance was zero.
From December 2004 through October 2008, Waters
embezzled approximately $491,000 from SCLTAF. She
                                                                     This is a joint investigation with EBSA and IRS. United
devised a scheme to embezzle from the SCLTAF by,
                                                                     States v. Steven Zavidow (D. New Jersey)
among other things, making personal purchases using
her SCLTAF-issued credit card and using SCLTAF funds to
pay for the purchases. Waters concealed her scheme for               Two Company Principals Charged With
years by altering the SCLTAF’s credit card statements and            Embezzlement from Employee Benefit
maintaining a set of fraudulently altered statements that            Fund
omitted any reference to her purchases.
                                                                     The two principals of PAF Painting Services and G. Fucci
This case is a joint investigation with EBSA, Pointe Coupee          Construction Services Company were charged on June 13,
Parish Sheriff’s Office, and West Baton Rouge Parish                 2011, with conspiracy to embezzle and embezzlement from
Sheriff’s Office. United States v. Theresa Waters (M.D.              an employee benefit fund. This superseding indictment
Louisiana)                                                           seeks a forfeiture of $1 million, which represents the
                                                                     proceeds obtained as a result of these offenses.
Restaurant Owner Pleads Guilty to
Embezzling from Employee Retirement                                  The principals of the two companies allegedly participated
Plan                                                                 in a scheme in which union painters were paid non-union
                                                                     wages off the books and received no benefits. These acts
Steven Zavidow, a former trustee and administrator of                were allegedly in violation of the collective bargaining
the Zavco Industries Retirement Plan, pled guilty on April           agreements (CBA) between the two companies and
8, 2011, to embezzlement from an employee benefit                    District Council 9 of the International Union of Painters
plan and tax evasion. The Plan was created to provide                and Allied Trades. The principals allegedly engaged in
pension benefits for the employees of approximately 11               fraudulent conduct intended to prevent the collection
restaurants.                                                         of contributions for the benefit funds of District Council

40     Semiannual Report to Congress: April 1 - September 30, 2011
                                             Labor Racketeering

9 and the subsequent remittances required by ERISA.          The two allegedly engaged in a scheme to systematically
The companies benefited by avoidance of the required         inflate bills and overcharge the Culinary and Teamsters
payment to the benefit funds.                                Union health plans along with Medicare, Medicaid,
                                                             and other private insurers for anesthetic procedures by
This is a joint investigation with the FBI and EBSA. (S.D.   overstating the time that the certified registered nurse
New York)                                                    anesthetists (CRNAs) spent with patients on a given
                                                             procedure. The CRNAs were allegedly instructed to
Physician and Wife Charged with Health                       fraudulently inflate the necessary time for procedures.
Care Fraud Against Union-Sponsored                           At one clinic, records indicated that CRNAs saw between
                                                             60 and 80 patients a day, making it impossible to spend
Benefit Plans
                                                             31 minutes with each patient as claimed.

A suburban Chicago chiropractor and his wife were indicted
                                                             This is a joint investigation with the Food and Drug
on June 16, 2011, on seven counts of health care fraud.
                                                             Administration, HHS-OIG, United States Postal Inspection
                                                             Service (USPIS), and Nevada Attorney General’s Office. (D.
The indictment alleges that from 2005 through 2011, the
                                                             Nevada)
physician and, at times, his wife devised and participated
in a scheme to defraud health care benefit programs,
including several union-sponsored benefit plans. The
                                                             Clinic Owners Accused of Defrauding
defendants allegedly obtained patient information,           Insurers
including the patient’s name and health insurance claim
number, typically by providing health care services to the   Three owners of chiropractor clinics were indicted on
patient on at least one occasion. They then allegedly        August 31, 2011, for allegedly defrauding private health
submitted claims containing false and fraudulent             insurance companies and union-sponsored plans.
information covering health care services supposedly         According to the indictment, the defendants submitted
rendered to the patients on the specified dates.             false insurance claims to private insurance companies for
                                                             medical services that either were not medically necessary
This is a joint investigation with FBI and EBSA. (N.D.       or were not provided to the patients. Between 1999 and
Illinois)                                                    2008, the defendants billed one private insurance company
                                                             more than $18 million.
$8.1 Million in Forfeiture Filed For a
                                                             As part of the fraud scheme, the defendants allegedly
Physician and Owner of Clinic Charged
                                                             instructed their clinics’ chiropractors to order neurological
along with Chief Operating Officer in
                                                             diagnostic testing and MRIs for patients, regardless
Health Benefit Plan Scheme                                   of medical necessity, and then to falsify the patients’
                                                             diagnoses so their health plans would cover additional
A physician and owner of a medical practice and his          visits for treatment.
chief operating officer were indicted on April 27, 2011,
on charges of conspiracy and health care fraud involving     This is a joint investigation with the Department of Justice-
union and employee health benefit plans. Additionally, a     HHS Medicare Fraud Strike Force and the FBI. (N.D.
forfeiture count for $8.1 million was also filed.            Illinois)


                                                              Semiannual Report to Congress: April 1 - September 30, 2011   41
                                                    Labor Racketeering


           Internal Union Corruption Investigations
    Our internal union investigation cases involve instances of corruption, including officers who abuse their positions of
  authority in labor organizations to embezzle money from union and member benefit plan accounts, and who defraud
  hardworking members of their right to honest services. Investigations in this area also focus on situations in which
  organized crime groups control or influence a labor organization—frequently to influence an industry for corrupt
  purposes or to operate traditional vice schemes. Following are examples of our work in this area.


Three Sentenced on Bribery Charges                                   This was a joint investigation with the FBI. United States
Involving Designated Legal Counsel                                   v. Robert L. McKinney, United States v. Thomas E. Miller,
                                                                     and United States v. Bryan Cartall (N.D. Ohio)
Scheme

Robert McKinney, a personal injury attorney and Designated
                                                                     Union Member Sentenced for Wire Fraud
Legal Counsel (DLC) for the BLET, was sentenced on May               in No-Show Employment Scheme at the
12, 2011, to serve four months in prison, three years’               Port of Baltimore
supervised release, and ordered to pay a $250,000 fine.
                                                                     Milton Tillman, Jr., an International Longshoremen’s
Thomas Miller, a Brotherhood of Locomotive Engineers                 Association (ILA) Local 333 union member, was sentenced
and Trainman (BLET) special representative, was sentenced            on July 8, 2011, to four years and three months in prison,
on June 23, 2011, to serve one month in prison, two years’           five years’ supervised release, and criminal restitution
supervised release, and ordered to pay a $60,000 fine.               in the amount of $120,000 payable to Ports America
Miller collected illegal payments for then-BLET President,           Chesapeake, LLC (Ports America).
Edward Rodzwicz.
                                                                     Between 2001 and 2007, Tillman was an ILA Local
Bryan Cartall, a personal injury attorney and DLC                    333 member who represented that he worked as a
attorney for BLET, was sentenced on September 20,                    longshoreman at the Port of Baltimore. Tillman was
2011, to three years’ probation with the first six months            required to be physically present at the marine terminals
as home confinement, and ordered to pay $150,000 in                  to work with a longshoremen gang to load or unload a
restitution.                                                         particular ship. Wage records maintained by Ports America
                                                                     indicated that the company paid wages and hourly benefit
BLET represents more than 55,000 members and is now                  contributions to Tillman for over 200 shifts he supposedly
a division of the Rail Conference of the International               worked in 2006 and 2007. However, he was compensated
Brotherhood of Teamsters. Both McKinney and Cartall                  for work at the Port of Baltimore when, in fact, he was
sought to become DLC representatives for BLET because                on extensive personal travel, both domestically and
of the substantial monetary recoveries won in this type              internationally, for approximately 121 of 258 work shifts.
of litigation. The two attorneys (McKinney and Cartall)              As a result of Tillman’s scheme, Ports America paid wages
bribed a former BLET president to ensure their selection             and fringe benefit contributions into the ILA employee
and retention on the union’s DLC list; Miller collected the          benefit plans for hours that he did not work. United States
bribes for the former president.                                     v. Milton Tillman Jr., et al. (D. Maryland)

42     Semiannual Report to Congress: April 1 - September 30, 2011
        Labor Racketeering




Departmental Management




                             Semiannual Report to Congress, Volume 62
                                              Departmental Management

OIG Report Details Improper Procurement                               Significant Deficiencies Persist in the
Practices by Senior Officials at the Veterans’                        Department’s IT Security Program
Employment and Training Services
                                                                      As required by the Federal Information Security
An OIG investigation, initiated as a result of a complaint            Management Act (FISMA), the OIG conducted an
received from a former Veterans’ Employment and Training              independent audit to determine whether the Department
Services (VETS) employee, found a pattern of misconduct               was meeting requirements. We assessed the effectiveness
involving the VETS Assistant Secretary and two other                  of selected management, operational, and technical
senior VETS officials. Their conduct reflected a consistent           information technology (IT) security controls in place
disregard of Federal procurement rules and regulations,               for seven major information systems within five DOL
Federal ethics principles, and the proper stewardship of              agencies. In addition, we considered work performed by
appropriated dollars.                                                 the OIG and external auditors, which included the OIG’s
                                                                      financial statement audit work, and performance audits
We determined that the Assistant Secretary’s insistence               of IT remediation and IT inventory.
upon retaining the services of several contractors led to
the circumvention of procurement rules and regulations.               We found that the Chief Information Officer (CIO) has
The OIG found that Department employees were often                    yet to establish a Risk Management Compliance Program
placed in untenable positions by the Assistant Secretary’s            as a Department-wide solution to deficiencies identified
actions, and felt pressure and/or were intimidated by him,            in our FY 2009 FISMA audit. As a result, we identified
or other senior VETS officials acting at his direction. In one        three significant deficiencies in the following security
example, this pattern of conduct resulted in payments of              control areas of the Department’s IT security program:
up to $700,000 to secure the services of one contractor.              access control, oversight of third-party systems, and
These services could have been secured at a lower cost and            inventory of IT assets. While not rising to the level of
should have been secured through open competition.                    a significant deficiency, additional IT security control
                                                                      weaknesses were identified during FISMA testing in the
The OIG recommended that the Department review                        areas of remediation of prior-year recommendations,
the specific procurement actions to determine, what,                  configuration management, contingency planning, and
if any, further actions should be taken. In response, the             incident response.
Department did not contest the findings as established by
the facts cited in the OIG’s report. The Department also              For the fifth consecutive year, access control was a
responded that it has recently taken several measures to              significant deficiency and was, in fact, worse than we had
improve safeguards in the procurement process within                  reported in FY 2009. During our testing, we were able to
VETS, including the imposition of protocols requiring VETS            gain unauthorized system administrative access to one
to submit proposed procurement actions to a special                   of the Department’s major information management
DOL board for the approval and hiring of an experienced               systems. This system’s database also contains personally
procurement official within VETS, among other things.                 identifiable information (PII). Recurring access control
The Department has also instituted new procedures for                 weaknesses present a significant risk to information
all agency procurement officials. The Assistant Secretary             and information systems, possibly compromising their
and his Chief of Staff resigned following the issuance of             integrity, presenting opportunities for fraud or misuse,
the OIG report.                                                       and resulting in significant impairments to agency mission-
                                                                      critical operations.

44      Semiannual Report to Congress: April 1 - September 30, 2011
                                        Departmental Management

For the second consecutive year, the Department was            conducted a performance audit to determine how much
unable to ensure that IT security was being addressed          progress the Department has made in implementing OIG
throughout the life cycle of information systems               recommendations to remediate identified IT security
developed by third parties. We discovered problems with        vulnerabilities. We tested 301 of the 415 recommendations
configuration management and continuity planning in all        that agency management had represented to the OIG as
five of the systems tested. In a separate audit of sensitive   being closed as of the beginning of FY 2010, and found that
IT assets, we identified obvious and systemic control          41 recommendations had not been fully implemented.
deficiencies resulting from a lack of proper accountability    These recommendations pertained to: control weaknesses
of IT sensitive assets in all five phases of the inventory     over access controls, PII, interconnectivity agreements;
process — procurement, distribution and accountability,        permission settings; and configuration-management plans.
disposal, reconciliation, and update — and the CIO’s lack of   For the last four consecutive years, OIG FISMA audits have
oversight. Without significant improvements in oversight,      reported access controls as a significant deficiency.
accountability, and inventory controls, the Department
risks the potential of eroding the public’s trust should an    Our audit results indicated timely remediation of IT
undetected IT security breach occur.                           recommendations was not a management priority.
                                                               Moreover, component agencies claimed they lacked
We recommended the CIO ensure appropriate resources            the resources and technical expertise to implement the
are available to provide effective oversight of the areas      agreed-upon corrective actions. Of the 492 prior-year
identified as significant deficiencies and implement           recommendations, the planned completion dates for
its planned, risk-based management and compliance              299 were extended at least once. As of May 25, 2011,
program Department wide. The Department agreed with            95 recommendations had been open for more than
the recommendations and stated that it is planning to          two years. Until management remediates these open IT
implement these and other steps. (Report No. 23-11-005-        recommendations, DOL’s mission-critical systems remain
07-001, September 21, 2011)                                    at an increased and unnecessary risk of misuse and
                                                               disruption.
Improvements Are Needed in DOL IT
Security Remediation Efforts                                   We recommended that the CIO develop procedures
                                                               in conjunction with the DAAs to modify agreed-upon
                                                               planned corrective actions. For those systems having
Since 2003, OIG annual FISMA audits have recommended
                                                               open IT recommendations, we recommended the
numerous corrective actions for deficiencies within the
                                                               development of immediate action plans to close
Department’s information security practices, including
                                                               recommendations. OASAM did not concur with either
critical weaknesses in access controls and poor oversight
                                                               the cause or the recommendations and submitted
of contractor systems. In DOL, the risks associated with
                                                               alternative recommendations. However, we did not
open IT recommendations are the responsibility of the
                                                               believe the alternative recommendations would result in
system’s agency head, which is delegated to a senior-level
                                                               a significant change to the remediation process already
official in the agency called the Designated Approving
                                                               in place. Prioritizing closure of the outstanding, open
Authority (DAA). Audit resolution, closure, and follow-
                                                               recommendations needs the direct involvement of the CIO
up of open recommendations are integral to good
                                                               and other key program officials such as the DAAs. (Report
departmental management. Corrective action taken on
                                                               No. 23-11-002-07-001, September 14, 2011)
OIG audit recommendations is essential to improving
the effectiveness and security of DOL operations. We

                                                                Semiannual Report to Congress: April 1 - September 30, 2011   45
                                             Departmental Management

                                                   Single Audits
    Office of Management and Budget (OMB) Circular A-133 (A-133) provides audit requirements for state and local
  governments, colleges and universities, and nonprofit organizations receiving Federal awards. Under A-133, covered
  entities that expend $500,000 or more a year in Federal awards are required to obtain an annual organization-wide
  audit that includes the auditor’s opinion on the entity’s financial statements and compliance with Federal award
  requirements. Non-Federal auditors, such as public accounting firms and state auditors, conduct these single audits.
  The OIG reviews the resulting audit reports for findings and questioned costs related to DOL awards, and to ensure
  that the reports comply with the requirements of A-133.


Single Audits Identify Material Weaknesses                           The purpose of the review was to determine whether: (1)
and Significant Deficiencies in 67 of 121                            the audit was conducted in accordance with applicable
                                                                     standards and met the single audit requirements; (2) any
Reports
                                                                     follow-up audit work was needed; and (3) there were
                                                                     any issues that may require management’s attention.
We reviewed 121 single audit reports this period, covering
                                                                     As a result of this review, the single audit report had to
DOL expenditures of more than $115 billion during the
                                                                     be reissued because of a material error in the Schedule
2010 audit year. These expenditures included more than
                                                                     of Expenditures of Federal Awards that had not been
$39 billion related to Recovery Act funding. The non-
                                                                     identified by the auditors.
Federal auditors issued 26 qualified or adverse opinions
on awardees’ compliance with Federal grant requirements,
their financial statements, or both. In particular, the
auditors identified 229 findings as material weaknesses
or significant deficiencies and more than $24 million
in questioned costs in 67 of the 121 reports reviewed,
indicating serious concerns about the auditees’ ability to
manage DOL funds and comply with the requirements of
major grant programs. We reported these 229 findings
and 264 related recommendations to DOL management
for corrective action.

Recipients expending more than $50 million a year in
Federal awards are assigned a cognizant Federal agency
for audit, and the cognizant agency is responsible for
conducting or obtaining quality control reviews of selected
A-133 audits. In FY 2011, DOL was the cognizant agency
for 16 recipients.

During the period, we conducted one quality control review
of auditors’ reports and supporting audit documentation.


46     Semiannual Report to Congress: April 1 - September 30, 2011
Legislative Recommendations




                 Semiannual Report to Congress, Volume 62
                           Legislative Recommendations
    The Inspector General Act requires the OIG to review existing or proposed legislation and regulations and make
  recommendations in the Semiannual Report concerning their impact on the economy and efficiency of the Department’s
  programs, and on the prevention of fraud and abuse. The OIG’s legislative recommendations have remained
  markedly unchanged over the last several Semiannual Reports, and the OIG continues to believe that the following
  legislative actions are necessary to promote increased efficiency in and protection of the Department’s programs
  and mission.



Allow DOL Access to Wage Records                                     • Expand the authority of EBSA to correct substandard
                                                                       benefit plan audits and ensure that auditors with
To reduce overpayments in employee benefit programs,                   poor records do not perform additional plan audits.
including UI, FECA, and Disaster Unemployment Assistance,              Changes should include providing EBSA with greater
the Department and the OIG need legislative authority to               enforcement authority over registration, suspension,
easily and expeditiously access state UI wage records,                 and debarment, and the ability to levy civil penalties
SSA wage records, and employment information from                      against employee benefit plan auditors. The ability to
the National Directory of New Hires (NDNH), which is                   correct substandard audits and take action against plan
maintained by the Department of Health and Human                       auditors is important because benefit plan audits help
Services.                                                              protect participants and beneficiaries by ensuring the
                                                                       proper value of plan assets and correct computation
By cross-matching UI claims against NDNH data, states                  of benefits.
can better detect overpayments to UI claimants who have
gone back to work but who continue to collect UI benefits.           • Require direct reporting of ERISA violations to DOL.
However, the law (42 U.S.C. 653 (i)) does not permit DOL               Under current law, a pension plan auditor who finds
or the OIG access to the NDNH. Moreover, access to SSA                 a potential ERISA violation is responsible for reporting
and UI data would allow the Department to measure the                  it to the plan administrator, but not directly to DOL.
long-term impact of employment and training services                   To ensure that improprieties are addressed, we
on job retention and earnings. In the absence of such                  recommend that plan administrators or auditors be
statutory authority, outcome information of this type for              required to report potential ERISA violations directly
program participants is otherwise burdensome and even                  to DOL. This would ensure the timely reporting of
impossible to obtain.                                                  violations and would more actively involve auditors in
                                                                       safeguarding pension assets, providing a first line of
Amend Pension Protection Laws                                          defense against the abuse of workers’ pension plans.


Legislative changes to ERISA and criminal penalties for              • Strengthen criminal penalties in Title 18 of the United
ERISA violations would enhance the protection of assets                States Code. Three sections of U.S.C. Title 18 serve as
in pension plans. To this end, the OIG recommends the                  the primary criminal enforcement tools for protecting
following:                                                             pension plans covered by ERISA. Embezzlement or theft
                                                                       from employee pension and welfare plans is prohibited


48     Semiannual Report to Congress: April 1 - September 30, 2011
                                      Legislative Recommendations

   by Section 664; making false statements in documents           showed that obligations provide a more useful measure
   required by ERISA is prohibited by Section 1027; and           for assessing states’ WIA funding status if obligations
   giving or accepting bribes related to the operation of         accurately reflect legally committed funds and are
   ERISA-covered plans is prohibited by Section 1954.             consistently reported.
   Sections 664 and 1027 subject violators to up to five
   years’ imprisonment, while Section 1954 calls for up        •	 Modify WIA to encourage the participation of training
   to three years’ imprisonment. We recommend the                 providers. WIA participants use individual training
   consideration of raising the maximum penalty for all           accounts to obtain services from approved eligible
   three violations and to determine whether it would             training providers. However, performance reporting
   be a greater deterrent to further protect employee             and eligibility requirements for training providers
   pension plans.                                                 have made some potential providers, such as public
                                                                  colleges and vocational schools, unwilling to serve WIA
Provide Authority to Ensure the Integrity of                      participants.
the Foreign Labor Certification Process
                                                               •	 Support amendments to resolve uncertainty about
                                                                  the release of WIA participants’ personally identifying
If DOL is to have a meaningful role in the H-1B specialty
                                                                  information for WIA reporting purposes. Some training
occupations foreign labor certification process, it must
                                                                  providers are hesitant to disclose participant data to
have the statutory authority to ensure the integrity of
                                                                  states for fear of violating the Family Education Rights
that process, including the ability to verify the accuracy
                                                                  and Privacy Act.
of information provided on labor condition applications.
Currently, DOL is statutorily required to certify H-1B
applications unless it determines them to be “incomplete or    Improve the Integrity of the FECA
obviously inaccurate.” Our concern with the Department’s       Program
limited ability to ensure the integrity of the certification
process is heightened by the results of OIG investigations     The OIG believes reforms should be considered to improve
that show the program is susceptible to significant fraud      the effectiveness and integrity of the FECA program in the
and abuse.                                                     following areas:


Enhance the WIA Program Through                                •	 Statutory access to Social Security wage records and
                                                                  the National Directory of New Hires. Currently, the
Reauthorization
                                                                  Department can only access Social Security wage
                                                                  information if the claimant gives it permission to
The reauthorization of the WIA provides an opportunity to
                                                                  do so, and has no access to the NDNH. Granting the
revise WIA programs to better achieve their goals. Based
                                                                  Department routine access to these databases would
on our audit work, the OIG recommends the following:
                                                                  aid in the detection of fraud committed by individuals
                                                                  receiving FECA wage-loss compensation but failing to
•	 Improve state and local reporting of WIA obligations.
                                                                  report income they have earned through work.
   A disagreement between ETA and the states about the
   level of funds available to states drew attention to the
                                                               •	 Benefit rates when claimants reach normal Federal or
   way WIA obligations and expenditures are reported.
                                                                  Social Security retirement age. Alternate views have
   The OIG’s prior work in nine states and Puerto Rico
                                                                  arisen as to whether and how benefit rates should be

                                                                Semiannual Report to Congress: April 1 - September 30, 2011   49
                                            Legislative Recommendations

     adjusted when beneficiaries reach Federal or Social               Clarify MSHA’s Authority to Issue Verbal
     Security retirement age. The benefit rate structure               Mine Closure Orders
     for FECA should be reassessed to determine what an
     appropriate benefit should be for those beneficiaries             The Mine Safety and Health Act of 1977 (Mine Act) charges
     who remain on the FECA rolls into retirement. Careful             the Secretary of Labor with protecting the lives and health
     consideration is needed to ensure that the benefit rates          of workers in coal and other mines. To that end, the Mine
     ultimately established will have the desired effect of            Act contains provisions authorizing the Secretary to issue
     providing appropriate compensation while ensuring                 mine closure orders. Specifically, Section 103(j) states that
     fairness to injured workers, especially those who have            in the event of any accident occurring in a coal or other
     been determined to be permanently injured and thus                mine, where rescue and recovery work is necessary, the
     unable to return to work.                                         Secretary or an authorized representative of the Secretary
                                                                       shall take whatever action he deems appropriate to protect
•	 Three-day waiting period. The FECA legislation                      the life of any person. Under Section 103(k), the Act states
   provides for a three-day waiting period immediately                 that an authorized representative of the Secretary, when
   after a work-related injury and before benefits apply               present, may issue such orders as he deems appropriate
   to discourage the filing of frivolous claims. As currently          to insure the safety of any person in the coal or other
   written, the legislation places the waiting period at the           mine.
   end of the 45-day continuation of pay period; thereby
   negating its purpose. Legislation passed in 2006 placed             The primary purpose of the Mine Act is to give the Secretary
   the waiting period immediately after an employment-                 the authority to take appropriate action—including
   related injury for Postal employees. If the intent of the           ordering a mine closure—to protect lives. As such, the OIG
   law is to have a true waiting period before applying for            recommends a technical review of the existing language
   benefits, therefore the worker can apply for benefits.              under Section 103(k) to ensure that MSHA’s long-standing
                                                                       and critically important authority to take whatever actions
                                                                       may be necessary, including issuing verbal mine closure
                                                                       orders, to protect miner health and safety is clear and not
                                                                       vulnerable to challenge.




50       Semiannual Report to Congress: April 1 - September 30, 2011
Appendices




        Semiannual Report to Congress, Volume 62
                                                               Appendix
     Index of Reporting Requirements Under the IG Act of 1978
GRG
REPORTING	           	       REQUIREMENT                                                         PAGE


Section 4(a)(2)	            Review of Legislation and Regulation 			                 	           48

Section 5(a)(1)	            Significant Problems, Abuses, and Deficiencies 		                    ALL

Section 5(a)(2)	            Recommendations with Respect to Significant
               	            Problems, Abuses, and Deficiencies 	                                 ALL

Section 5(a)(3)	            Prior Significant Recommendations on Which
               	            Corrective Action Has Not Been Completed 	       			                 62	

Section 5(a)(4) 	           Matters Referred to Prosecutive Authorities 	    	           	   	   63

Section 5(a)(5) and         Summary of Instances Where Information Was Refused 			               NONE
Section 6(b)(2)		            									

Section 5(a)(6)	            List of Audit Reports 						                                         54

Section 5(a)(7)		            Summary of Significant Reports                                      ALL

Section 5(a)(8)	            Statistical Tables on Management Decisions on Questioned Costs       53

Section 5(a)(9)	            Statistical Tables on Management Decisions on Recommendations
		                          That Funds Be Put to Better Use                                      53

Section 5(a)(10)	           Summary of Each Audit Report over Six Months Old for
           	                Which No Management Decision Has Been Made                           62

Section 5(a)(11)	           Description and Explanation of Any Significant
		                          Revised Management Decision                	                         NONE

Section 5(a)(12)	           Information on Any Significant Management Decisions
		                          with Which the Inspector General Disagrees                           NONE

     Requirement Under the Dodd-Frank Wall Street Reform Act of 2010


 Section 3(d)               Peer Review                                                          64


                Reporting Requirement Under the Recovery Act of 2010


 Section 1553(b)(2)(B)(iii) Whistleblower Reporting 			                                          65




52      Semiannual Report to Congress: April 1 - September 30, 2011
                                                                 Appendix

                                                Funds Put to a Better Use
                                       AUDITANDINVESTIGATIVESCHEDULES
                                             FundsPuttoaBetterUseAgreedtobyDOL 
                                                  FundsPuttoaBetterUseAgreedtobyDOL                             Numberof              DollarValue
                                                                                                                              Reports               ($millions)
                                                                                                                          Numberof              DollarValue
Forwhichnomanagementdecisionhadbeenmadeasofthecommencementofthereportingperiod                                      6
                                                                                                                              Reports                   1,346.2
                                                                                                                                                      ($millions)
Issuedduringthereportingperiod
 Forwhichnomanagementdecisionhadbeenmadeasofthecommencementofthereportingperiod                                     56                   677.2
                                                                                                                                                          1,346.2
Subtotal
 Issuedduringthereportingperiod                                                                                              115                  2,023.4
                                                                                                                                                            677.2
Forwhichmanagementdecisionwasmadeduringthereportingperiod:
 Subtotal                                                                                                                         11                          
                                                                                                                                                          2,023.4
•Dollarvalueofrecommendationsthatwereagreedtobymanagement
 Forwhichmanagementdecisionwasmadeduringthereportingperiod:                                                                                      15.2
•Dollarvalueofrecommendationsthatwerenotagreedtobymanagement
 �Dollarvalueofrecommendationsthatwereagreedtobymanagement                                                                                     1,300
                                                                                                                                                              15.2
Forwhichnomanagementdecisionhadbeenmadeasoftheendofthereportingperiod
 �Dollarvalueofrecommendationsthatwerenotagreedtobymanagement                                                           5                    677.2
                                                                                                                                                            1,300
Forwhichnomanagementdecisionhadbeenmadeasoftheendofthereportingperiod                                                  5                677.2
                                              FundsPuttoaBetterUseImplementedbyDOL
                                                                                                                                        
                                             FundsPuttoaBetterUseImplementedbyDOL                              Numberof        DollarValue
                                                                                                                              Reports       ($millions)
                                                                                                                          Numberof      DollarValue
Forwhichfinalactionhadnotbeentakenasofthecommencementofthereportingperiod                                          1
                                                                                                                              Reports                 0.1
                                                                                                                                              ($millions)
Forwhichmanagementorappealdecisionsweremadeduringthereportingperiod                                                     41             15.2
                                                                                                                                                       0.1
  Forwhichfinalactionhadnotbeentakenasofthecommencementofthereportingperiod
Subtotal                                                                                                                           54             15.3
                                                                                                                                                      15.2
  Forwhichmanagementorappealdecisionsweremadeduringthereportingperiod
Forwhichfinalactionwastakenduringthereportingperiod:
  Subtotal                                                                                                                         5               15.3
•Dollarvalueofrecommendationsthatwereactuallycompleted                                                                                       0.0
  Forwhichfinalactionwastakenduringthereportingperiod:
•Dollarvalueofrecommendationsthatmanagementhassubsequentlyconcludedshouldnotorcouldnotbe
  �Dollarvalueofrecommendationsthatwereactuallycompleted                                                                                     0.0
                                                                                                                                                        0.0
implementedorcompleted                                                                                                                              0.0
  �Dollarvalueofrecommendationsthatmanagementhassubsequentlyconcludedshouldnotorcouldnotbe
Forwhichnofinalactionhadbeentakenbytheendoftheperiod                                                                 5               15.3
  implementedorcompleted
 Forwhichnofinalactionhadbeentakenbytheendoftheperiod                                                              5 
                                                        Questioned Costs
                                                                                                                                                      15.3
                                                                                                                                              
                                                                QuestionedCosts
                                                       ResolutionActivity:QuestionedCosts
                                                                                                                              Numberof           Questioned
                                                                                                                                  Reports                 Costs
                                                                                                                                                     ($millions)
 Forwhichnomanagementdecisionhadbeenmadeasofthecommencementofthereportingperiod(asadjusted)                           19                   9.4
 Issuedduringthereportingperiod                                                                                                   24                  29.8
 Subtotal                                                                                                                              43                  39.2
 Forwhichamanagementdecisionwasmadeduringthereportingperiod:                                                                                          
 �Dollarvalueofdisallowedcosts                                                                                                                         17.5
 �Dollarvalueofcostsnotdisallowed                                                                                                                      2.2
 Forwhichnomanagementdecisionhadbeenmadeasoftheendofthereportingperiod                                                  31                  19.5
 Forwhichnomanagementdecisionhadbeenmadewithinsixmonthsofissuance                                                          11                   8.6
                                                                                                                                              
                                                       ClosureActivity:DisallowedCosts
                                                                                                                              Numberof            Disallowed
                                                                                                                                  Reports                  Costs
                                                                                                                                                      ($millions)
 Forwhichfinalactionhadnotbeentakenasofthecommencementofthereportingperiod(asadjusted)                                65                   33.0
 Forwhichmanagementorappealdecisionsweremadeduringthereportingperiod                                                         9                   17.5
 Subtotal                                                                                                                              74                   50.5
 Forwhichfinalactionwastakenduringthereportingperiod:                                                                                                  
 �Dollarvalueofdisallowedcoststhatwererecovered                                                                                                      20.5
 �Dollarvalueofdisallowedcoststhatwerewrittenoffbymanagement                                                                                      1.3
 �Dollarvalueofdisallowedcoststhatenteredappealstatus                                                                                               0.0
 Forwhichnofinalactionhadbeentakenbytheendofthereportingperiod                                                           54                   28.7




                                                                               Semiannual Report to Congress: April 1 - September 30, 2011                53
                                                                                                                                              37
                                                                  Appendix

                                              Final Audit Reports Issued
                                                                         
                                                                                #of                           FundsPut               Other
                             ProgramName                                     Nonmonetary    Questioned        ToBetter             Monetary
                              ReportName                                   Recommendations    Costs($)         Use($)              Impact($)
                                                   EmploymentandTrainingPrograms
                                              EmploymentandTrainingͲMultiplePrograms
RecoveryAct:PlanningandCoordinationofWorkforce
DevelopmentActivitieswithFederalInfrastructureInvestments
NeededImprovement;ReportNo.18Ͳ11Ͳ010Ͳ03Ͳ001;09/30/11                     1                0              0                                     0
                                                           JobCorpsProgram
AdamsandAssociatesDidNotEnsureBestValueinAwardingSubͲ
ContractsattheRedRockJobCorpsCenter;ReportNo.26Ͳ11Ͳ002Ͳ
03Ͳ370;09/30/11                                                              5          334,675              0                                     0
ETRDidNotEnsureBestValueInAwardingSubͲContractsAtThe
TurnerJobCorpsCenter;26Ͳ11Ͳ003Ͳ03Ͳ370;09/30/11                          5         1,029,415              0                                     0
JobCorpsNeedsToImproveReliabilityofPerformanceMetricsand
Results;ReportNo.26Ͳ11Ͳ004Ͳ03Ͳ370;09/30/2011                             3                 0     61,200,000                                     0
JobCorpsMustStrengthenControlsToEnsureLowͲIncome
EligibilityofApplicants;ReportNo.26Ͳ11Ͳ005Ͳ03Ͳ370;09/30/11              4        2,270,303    164,600,000                                     0
                                                        WorkforceInvestmentAct
GranttotheInternationalAssociationofNanotechnology;Report
No.02Ͳ11Ͳ203Ͳ03Ͳ390;09/12/11                                              2         1,500,000              0                                     0
AdditionalInformationNeededtoMeasuretheEffectivenessand
ReturnonInvestmentofTrainingServicesFundedUndertheWIA
AdultandDislocatedWorkerPrograms;ReportNo.03Ͳ11Ͳ003Ͳ03Ͳ
390;09/30/11                                                                 4                0    124,000,000                                     0
RecoveryAct:SlowPacePlacingWorkersIntoJobsJeopardizes
EmploymentGoalsofTheGreenJobsProgram;ReportNo.18Ͳ11Ͳ
004Ͳ03Ͳ390;09/30/11                                                          1                0    327,300,000                                     0
GoalTotals(8Reports)                                                      25        5,134,393 677,100,000                                        0
                                                        WorkerBenefitPrograms
FederalEmployees’CompensationAct                                                                          
ServiceAuditors'ReportonIntegratedFederalEmployees'
CompensationSystemandServiceAuditors'ReportontheMedical
BillProcessingSystemForthePeriodOctober1,2010toMarch31,
2011;ReportNo.22Ͳ11Ͳ008Ͳ04Ͳ431;09/13/11                                   0                0              0                                     0
LongshoreandHarborWorkers'Compensation                                                                                    
LongshoreandHarborWorkers'CompensationActSpecialFund
FinancialStatementandIndependentAuditors'Report;ReportNo.
22Ͳ11Ͳ004Ͳ04Ͳ432;06/10/11                                                         4                   0                     0                      0
DistrictofColumbiaWorkmens'CompensationActSpecialFund
FinancialStatementandIndependentAuditors'Report;ReportNo.
22Ͳ11Ͳ005Ͳ04Ͳ432;06/10/11                                                         4                   0                     0                      0
EmployeeBenefitsSecurityProgram                                                                                            
FurtherActionByEBSACouldHelpEnsurePPACAImplementation
andCompliance;ReportNo.09Ͳ11Ͳ003Ͳ12Ͳ121;09/30/11                              4                   0                     0                      0
GoalTotals(4Reports)                                                           12                   0                     0                      0




     54    Semiannual Report to Congress: April 1 - September 30, 2011
                                                          Appendix

                               Final Audit Reports Issued, continued
                                                                
            WorkerSafety,HealthandWorkplaceRights
MineSafetyandHealth                                                                                                    
MSHAMustMoreConsistentlyDetermineTheNumberOfRequired
InspectionsAndMoreTransparentlyReportInspectionResultsFor
MetalAndNonmetalMines;ReportNo.05Ͳ11Ͳ004Ͳ06Ͳ001;09/29/11                5                       0                  0              0
GoalTotals(1Report)                                                 5                               0                  0              0
                                                    DepartmentalManagement
OfficeoftheChiefFinancialOfficer                                                                                     
IndependentAuditors’ReportontheU.S.DepartmentofLabor’sFY
2010RevisedConsolidatedFinancialStatements;ReportNo.22Ͳ11Ͳ
015Ͳ13Ͳ001;05/23/11                                                           0                       0               0                 0
GoalTotals(1Reports)                                                        0                       0               0                 0
FinalAuditReportTotals(14Reports)                                       42               5,134,393     677,100,000                 0
                                                                




                                                                         Semiannual Report to Congress: April 1 - September 30, 2011   55
                                                               Appendix

                                                        Other Reports
                                                                      
                                     ReportName                                     Recommendations        Costs($)
                                               EmploymentandTrainingPrograms
     EmploymentandTrainingͲMultiplePrograms                                                      
     RecoveryAct:QualityControlReviewSingleAuditofJobServiceNorth
     DakotafortheYearEndedJune30,2010;ReportNo.18Ͳ11Ͳ008Ͳ03Ͳ001;
     09/30/11                                                                               4                            0
     VerificationofEmploymentandTrainingAdministrationandOfficeofJob
     CorpsRemediationEffortsofPriorYearSecurityRecommendations;
     ReportNo.23Ͳ11Ͳ017Ͳ03Ͳ001;09/22/11                                                  6                            0
     FederalInformationSecurityManagementActAuditofETA’sEͲGrants
     SystemandUnemploymentInsuranceDatabaseManagementSystem;
     ReportNumber23Ͳ11Ͳ027Ͳ03Ͳ001;09/30/11                                               2                            0
     BureauofLaborStatistics                                                                       
     VerificationofBureauofLaborStatisticsRemediationEffortsofPriorYear
     SecurityRecommendations;ReportNo.23Ͳ11Ͳ008Ͳ11Ͳ001;09/20/11                       3                             0
     GoalTotals(4Reports)                                                               15                            0
                                                   WorkerBenefitPrograms
     FederalEmployees'CompensationAct                                                              
     TestimonyͲReviewingWorkers’CompensationforFederalEmployees;
     ReportNo.25Ͳ11Ͳ903Ͳ04Ͳ431;05/12/11                                                 0                             0
     EmployeeBenefitsSecurityProgram                                                               
     VerificationofEmployeeBenefitsSecurityAdministrationRemediation
     EffortsofPriorYearSecurityRecommendations;ReportNo.23Ͳ11Ͳ009Ͳ
     12Ͳ001;08/25/11                                                                       1                            0
     FederalInformationSecurityManagementActAuditofEBSA’sTechnical
     AssistanceandInquirySystem;ReportNumber:23Ͳ11Ͳ026Ͳ12Ͳ001;
     09/30/11                                                                              3                             0
     GoalTotals(3Reports)                                                               4                             0
                                         WorkerSafety,Health,andWorkplaceRights
     OfficeofFederalContractCompliance                                                            
     VerificationofOfficeofFederalContractComplianceRemediationEfforts
     ofPriorYearSecurityRecommendations;ReportNo.23Ͳ11Ͳ014Ͳ04Ͳ410;
     09/19/11                                                                             0                              0
     WageandHourDivision                                                                           
     VerificationofOfficeofDivisionofWageandHourRemediationEffortsof
     PriorYearSecurityRecommendations;ReportNo.23Ͳ11Ͳ013Ͳ04Ͳ420;
     08/26/11                                                                             3                              0
     OfficeofLaborManagementServices                                                              
     VerificationofOfficeofLaborManagementServicesRemediationEfforts
     ofPriorYearSecurityRecommendations;ReportNo.23Ͳ11Ͳ010Ͳ04Ͳ421;
     08/15/11                                                                             0                              0
                                                                      



56      Semiannual Report to Congress: April 1 - September 30, 2011
                                  Other Reports, continued
                                                           
MineSafetyandHealth                                                                               
VerificationofMineSafetyandHealthAdministrationRemediation
EffortsofPriorYearSecurityRecommendations;ReportNo.23Ͳ11Ͳ
015Ͳ06Ͳ001;09/01/11                                                                   15                              0
OccupationalSafetyandHealth                                                                       
VerificationofOccupationalSafetyandHealthAdministration
RemediationEffortsofPriorYearSecurityRecommendations;Report
No.23Ͳ11Ͳ021Ͳ10Ͳ001;09/20/11                                                          0                              0
TestimonyͲIsOSHAUnderminingStateEffortstoPromoteWorkplace
Safety?;ReportNo.25Ͳ11Ͳ905Ͳ10Ͳ105;06/16/11                                         0                              0
GoalTotals(6Reports)                                                                18                              0
                                         DepartmentalManagement
OfficeofPublicAffairs                                                                             
VerificationofOfficeofPublicAffairsRemediationEffortsofPriorYear
SecurityRecommendations;ReportNo.23Ͳ11Ͳ019Ͳ01Ͳ001;08/30/11                         0                              0
OfficeofAdministrativeLawJudges                                                                  
VerificationofOfficeofAdministrativeLawJudgesRemediation
EffortsofPriorYearSecurityRecommendations;ReportNo.23Ͳ11Ͳ
011Ͳ01Ͳ060;08/26/11                                                                   34                              0
OfficeofDisabilityEmploymentPolicy                                                               
VerificationofOfficeofDisabilityEmploymentPolicyRemediation
EffortsofPriorYearSecurityRecommendations;ReportNo.23Ͳ11Ͳ
020Ͳ01Ͳ080;08/25/11                                                                    1                              0
OfficeoftheAssistantSecretaryforAdministrationand
Management                                                                                           
ImprovementsAreNeededinDOLITSecurityRemediationEfforts;
ReportNo.23Ͳ11Ͳ002Ͳ07Ͳ001;09/14/11                                                   2                              0
VerificationofOfficeoftheAssistantSecretaryforAdministrationand
ManagementRemediationEffortsofPriorYearSecurity
Recommendations;ReportNo.23Ͳ11Ͳ012Ͳ07Ͳ001;09/14/11                                  0                              0
InformationTechnologySecurityConditionsNeedingManagement
ActionExistforDOLSupportPortalFileShare;ReportNo.23Ͳ11Ͳ018Ͳ
07Ͳ001;09/02/11                                                                       1                              0
FederalInformationSecurityManagementActAuditofOASAM's
Safety&HealthManagementSystem;ReportNumber:23Ͳ11Ͳ025Ͳ07Ͳ
001;09/30/11                                                                           1                              0
FederalInformationSecurityManagementActAuditofOASAMEͲ
ProcurementSystemandEmployeeComputerNetwork/Departmental
ComputerNetwork;ReportNo.23Ͳ11Ͳ029Ͳ07Ͳ001;09/30/11                             2                              0
OfficeoftheChiefInformationOfficer                                                              
SignificantDeficienciesPersistinDOL’sInformationTechnology
SecurityProgram;23Ͳ11Ͳ005Ͳ07Ͳ001;09/21/11                                            2                              0
VerificationofOfficeofOfficeoftheChiefInformationOfficer
RemediationEffortsofPriorYearSecurityRecommendations;Report
No.23Ͳ11Ͳ016Ͳ07Ͳ720;09/22/11                                                          0                              0



                                                                 Semiannual Report to Congress: April 1 - September 30, 2011   57
                                           Other Reports, continued
                                                                     
     FederalInformationSecurityManagementActAuditofOCIOEntityͲ
     WideITSecurityControls;ReportNo.23Ͳ11Ͳ030Ͳ07Ͳ001;09/30/11   4         0
     OfficeoftheChiefFinancialOfficer                                      
     FederalInformationSecurityManagementActAuditoftheCFO
     PeoplePowerandNewCoreFinancialManagementSystem;ReportNo.
     23Ͳ11Ͳ028Ͳ13Ͳ001;09/30/11                                             3         0
     TestimonyͲInvestigatingFinancialMismanagementattheU.S.
     DepartmentofLabor;Reportno.25Ͳ11Ͳ904Ͳ13Ͳ001;06/02/11             0         0
     GoalTotals(13Reports)                                               50        0
     OtherReportTotals(26Reports)                                      87        0
                                                                     




58     Semiannual Report to Congress: April 1 - September 30, 2011
                                                        Appendix

                                   Single Audit Reports Processed
                                                              
                               ProgramName                                     #ofNonmonetary Questioned              FundsPutTo
                                                                                                                              BetterUse
                                ReportName                                     Recommendations          Costs($)             ($)
                                                 EmploymentandTrainingPrograms
                                             VeteransEmploymentandTrainingServices
StateofLouisiana;ReportNo.24Ͳ11Ͳ543Ͳ02Ͳ201;05/06/20111/                         0                    147,057                   0
StateofNewHampshire;ReportNo.24Ͳ11Ͳ571Ͳ02Ͳ201;06/29/2011                       1                          0                   0
                                                IndianandNativeAmericanPrograms
CollegeofMenomineeNation;ReportNo.24Ͳ11Ͳ562Ͳ03Ͳ355;8/19/11                     3                      20,355                  0
TurtleMountainBandofChippewaIndians;ReportNo.24Ͳ11Ͳ592Ͳ03Ͳ355;
08/09/11                                                                               1                              0               0
                                           SeniorCommunityServiceEmploymentProgram
NationalIndianCouncilonAging;ReportNo.24Ͳ11Ͳ537Ͳ03Ͳ360;04/26/11                1                              0               0
SanCarlosApacheTribeWorkforceInvestmentActProgram;ReportNo.24Ͳ11Ͳ
558Ͳ03Ͳ360;07/06/11                                                                   1                              0               0
                                                      WorkforceInvestmentAct
AmericanYouthworks;ReportNo.24Ͳ11Ͳ536Ͳ03Ͳ390;04/29/11                             1                          0                   0
MetroUnitedMethodistUrbanMinistry;ReportNo.24Ͳ11Ͳ539Ͳ03Ͳ390;04/28/11           1                          0                   0
StateofKansas;ReportNo.24Ͳ11Ͳ540Ͳ03Ͳ390;04/29/11                                 3                          0                   0
StateofNevada;ReportNo.24Ͳ11Ͳ541Ͳ03Ͳ390;04/29/11                                 8                          0                   0
TheCorpsNetwork;ReportNo.24Ͳ11Ͳ544Ͳ03Ͳ390;05/16/11                               3                          0                   0
PinalCountyCommunityCollegeDistrict;ReportNo.24Ͳ11Ͳ545Ͳ03Ͳ390;05/16/11         1                          0                   0
StateofDelaware;ReportNo.24Ͳ11Ͳ548Ͳ03Ͳ390;05/17/11                             8                     14,834                   0
LearningworksFKAPortlandWest,Inc.;ReportNo.24Ͳ11Ͳ550Ͳ03Ͳ390;05/25/11           2                          0                   0
StateofFlorida;ReportNo.24Ͳ11Ͳ551Ͳ03Ͳ390;05/26/11                                4                          0                   0
StateofConnecticut;ReportNo.24Ͳ11Ͳ552Ͳ03Ͳ390;06/01/11                            8                    475,477                   0
ArizonaWomen’sEducationandEmployment,Inc.;24Ͳ11Ͳ553Ͳ03Ͳ390;05/26/11                6                       0                   0
YouthbuildLakeCounty,Inc.;24Ͳ11Ͳ554Ͳ03Ͳ390;06/03/11                                 1                       0                   0
JewishRenaissanceFoundation,Inc.;ReportNo.24Ͳ11Ͳ557Ͳ03Ͳ390;06/17/11                2                       0                   0
StateofNebraska;ReportNo.24Ͳ11Ͳ559Ͳ03Ͳ390;06/14/11                                 12                  16,345                   0
StateofWyoming,ReportNo.24Ͳ11Ͳ560Ͳ03Ͳ390;06/17/11                                   2                       0                   0
StateofWisconsin;ReportNo.24Ͳ11Ͳ561Ͳ03Ͳ390;06/20/11                                 4              10,082,879                   0
StateofWashingtonOfficeofFinancialManagement;ReportNo.24Ͳ11Ͳ563Ͳ03Ͳ
390;06/16/11                                                                             3                           0               0
StateofMaine;ReportNo.24Ͳ11Ͳ565Ͳ03Ͳ390;06/20/11                                     4                           0               0
StateofOklahoma;ReportNo.24Ͳ11Ͳ566Ͳ03Ͳ390;06/22/11                                  4                           0               0
DillardUniversity;Reporto.24Ͳ11Ͳ569Ͳ03Ͳ390;08/02/11                                  6                           0               0
StateofNewHampshire;ReportNo.25Ͳ11Ͳ570Ͳ03Ͳ390;06/29/11                             8                           0               0
WorkforceCONNECTIONS;ReportNo.24Ͳ11Ͳ575Ͳ03Ͳ390;06/30/11                               2                           0               0
GoodwillIndustriesofSouthernNevada,Inc.,12/31/2009and2008forthe
FinancialPositionEndedDecember2008;ReportNo.24Ͳ11Ͳ576Ͳ03Ͳ390;07/25/11             1                           0               0
                                                              




                                                                    Semiannual Report to Congress: April 1 - September 30, 2011     59
                                                              Appendix

                         Single Audit Reports Processed, continued
                                                                     
MichiganDepartmentofEnergy,Labor,andEconomicGrowth;ReportNo.24Ͳ
11Ͳ578Ͳ03Ͳ390;07/06/112/                                                         6          170,726         0
HousingAuthorityofEastBatonRougeParish;ReportNo.24Ͳ11Ͳ584Ͳ03Ͳ390;
07/25/11                                                                          1                 0        0
MexicanAmericanAlcoholismProgram,Inc.;ReportNo.24Ͳ11Ͳ585Ͳ03Ͳ390;
07/25/11                                                                           1                 0        0
NationalCouncilofLaRaza;ReportNo.24Ͳ11Ͳ586Ͳ03Ͳ390;08/09/11                  2                 0        0
OpportunitiesIndustrializationCenterofWashington;ReportNo.24Ͳ11Ͳ587Ͳ
03Ͳ390;08/02/11                                                                   2                 0        0
TheDirectorsCouncil;ReportNo.24Ͳ11Ͳ588Ͳ03Ͳ390;08/04/11                       2             2,667        0
GovernmentofGuam;ReportNo.24Ͳ11Ͳ589Ͳ03Ͳ390;08/02/11                          1                 0        0
SouthCarolinaDepartmentofEmploymentandWorkforce;ReportNo.24Ͳ11Ͳ
590Ͳ03Ͳ390;08/04/11                                                               4                 0        0
MichiganDepartmentofAgriculture;ReportNo.24Ͳ11Ͳ591Ͳ03Ͳ390;08/09/11          1                 0        0
St.JamesParish;ReportNo.24Ͳ11Ͳ594Ͳ03Ͳ390;08/09/11                            1                 0        0
OregonHumanDevelopmentCorporation;ReportNo.24Ͳ11Ͳ595Ͳ03Ͳ390;
08/11/11                                                                           2                 0        0
GoodwillIndustriesofSouthernNevada,Inc.,12/31/2010and2009forthe
FinancialPositionEndedDecember2009;ReportNo.24Ͳ11Ͳ596Ͳ03Ͳ390;
07/25/11                                                                           1                27        0
GovernmentoftheDistrictofColumbia;ReportNo.24Ͳ11Ͳ597Ͳ03Ͳ390;
08/11/11                                                                           7       304,473            0
TheNavajoNation;ReportNo.24Ͳ11Ͳ598Ͳ03Ͳ390;08/19/11                           4       166,202            0
TerritoryofAmericanSamoa;ReportNo.24Ͳ11Ͳ599Ͳ03Ͳ390;8/25/11                  6             0            0
MiCasaResourceCenter;ReportNo.24Ͳ11Ͳ600Ͳ03Ͳ390;9/15/11                      1             0            0
StateofAlabama;ReportNo.24Ͳ11Ͳ601Ͳ03Ͳ390;9/15/11                             1             0            0
MichiganVeteransFoundation;ReportNo.24Ͳ11Ͳ602Ͳ03Ͳ390;9/15/11                 1             0            0
ColusaCountyOneͲStopPartnership;ReportNo.24Ͳ11Ͳ603Ͳ03Ͳ390;05/16/11          2         4,999            0
GoalTotals(48Reports)                                                          147   11,406,041            0
                                                   WorkerBenefitPrograms
UnemploymentInsuranceService                                                                         
NewMexicoDepartmentofWorkforceSolutions;ReportNo.24Ͳ11Ͳ535Ͳ03Ͳ
315;04/19/11                                                                    3                  0        0
StateofColorado;ReportNo.24Ͳ11Ͳ538Ͳ03Ͳ315;10/18/10                          5                  0        0
StateofLouisiana;ReportNo.24Ͳ11Ͳ542Ͳ03Ͳ315;05/06/113/                      3          1,664,144        0
StateofMissouri;ReportNo.24Ͳ11Ͳ546Ͳ03Ͳ315;05/16/11                          3                  0        0
StateofCalifornia;ReportNo.24Ͳ11Ͳ547Ͳ03Ͳ315;05/19/11                        4                  0        0
StateofNorthCarolina;ReportNo.24Ͳ11Ͳ549Ͳ03Ͳ315;05/19/11                    15         1,705,168        0
StateofVermont;ReportNo.24Ͳ11Ͳ555Ͳ03Ͳ315;06/16/11                           4                  0        0
StateofArizona;ReportNo.24Ͳ11Ͳ556Ͳ03Ͳ315;06/14/11                           3          6,713,439        0
StateofOhio;ReportNo.24Ͳ11Ͳ567Ͳ03Ͳ315;06/21/2011                            1                  0        0
StateofWestVirginia;ReportNo.24Ͳ11Ͳ568Ͳ03Ͳ315;06/22/11                     3              6,037        0
StateofRhodeIsland;ReportNo.24Ͳ11Ͳ572Ͳ03Ͳ315;06/29/11                      12                 0        0
CommonwealthofMassachusetts;ReportNo.24Ͳ11Ͳ573Ͳ03Ͳ315;06/30/11              7                  0        0
StateofSouthDakota;ReportNo.24Ͳ11Ͳ574Ͳ03Ͳ315;06/30/11                      5                  0        0
StateofNewJersey;ReportNo.24Ͳ11Ͳ577Ͳ03Ͳ315;07/06/11                        1                  0        0
StateofMinnesota;ReportNo.24Ͳ11Ͳ580Ͳ03Ͳ315;07/06/11                         2          3,219,000        0
                         SINGLEAUDITREPORTS PROCESSED,CONTINUED
60     Semiannual Report to Congress: April 1 - September 30, 2011
                           Single Audit Reports PROCESSED,CONTINUED
                           SINGLEAUDITREPORTS Processed, continued
                                                                                                                                                              
StateofGeorgia;ReportNo.24Ͳ11Ͳ581Ͳ03Ͳ315;07/06/11                                                      4                      0                     0
StateofIowa;ReportNo.24Ͳ11Ͳ582Ͳ03Ͳ315;07/25/11                                                        3                      0                     0
StateofOregon;ReportNo.24Ͳ11Ͳ583Ͳ03Ͳ315;07/25/11                                                       1                    218                     0
GoalTotals(18Reports)                                                                                     79            13,308,006                     0
                                        WorkerSafety,Health,andWorkplaceRights
NewMexicoEnvironmentDepartment;ReportNo.24Ͳ11Ͳ564Ͳ10Ͳ001;06/17/11                                      1                         0                 0
MichiganDepartmentofEnergy,LaborandEconomicGrowth;ReportNo.24Ͳ
11Ͳ579Ͳ10Ͳ001;07/06/114/                                                                                   1                 17,820                     0
FarmworkerJustice;ReportNo.24Ͳ11Ͳ593Ͳ10Ͳ001;08/02/11                                                    1                      0                     0
GoalTotals(3Reports)                                                                                      3                 17,820                     0
ReportTotals(69Reports)                                                                                  229            24,731,867                     0

1/ThisSingleAuditalsofoundquestionedcostsrelatedtounemploymentinsurancegrantsissuedbytheEmploymentandTrainingAdministrationͲseeReport
No.24Ͳ11Ͳ542Ͳ03Ͳ315.
2/ThisSingleAuditalsofoundquestionedcostsrelatedtograntsissuedbytheOccupationalSafetyandHealthAdministrationͲseeReportNo.24Ͳ11Ͳ579Ͳ10Ͳ
001.
3/ThisSingleAuditalsofoundquestionedcostsrelatedtograntsissuedbytheVeteransEmploymentandTrainingServiceͲseeReportNo.24Ͳ11Ͳ543Ͳ02Ͳ201.
4/ThisSingleAuditalsofoundquestionedcostsrelatedtoWorkforceInvestmentActgrantsissuedbytheEmploymentandTrainingAdministrationͲsee
ReportNo.24Ͳ11Ͳ578Ͳ03Ͳ390.

                                                                               
                                                                               




                                                                                   Semiannual Report to Congress: April 1 - September 30, 201145           61
                                                                                   Appendix

                            Unresolved Audit Reports Over Six Months Old
                                                                                                
                                                                                                                                                     #of                      Questioned
                 DateIssued                                   NameofAudit                                       ReportNumber
  Agency                                                                                                                                        Recommendations                 Costs($)
                                                           NonmonetaryRecommendationsandQuestionedCosts
                      FinalManagementDecision/DeterminationIssuedByAgencyDidNotResolve;OIGNegotiatingwithAgency
                              
                             OSHANeedstoEvaluatetheImpactandUseofHundreds                                       
   OSHA           09/30/10 ofMillionsofDollarsinPenaltyReductionsasIncentives 02Ͳ10Ͳ201Ͳ10Ͳ105       7                                                                                 0
                              forEmployerstoImproveWorkplaceSafetyandHealth
                              
                             ComplainantsDidNotAlwaysReceiveAppropriate                                             
   OSHA           09/30/10 InvestigationsUndertheWhistleblowerProtection          02Ͳ10Ͳ202Ͳ10Ͳ105       1                                                                                 0
                              Program
                              
                             OWCPNeedstoImproveItsMonitoringandManagingof                              
     ESA          03/23/11                                                             03Ͳ11Ͳ001Ͳ04Ͳ430       2                                                               0
                              DefenseBaseActClaims
                                          FinalDeterminationNotIssuedbyGrant/ContractingOfficerbyCloseofPeriod
                                    
                                   LosAngelesJCCDidNotEnsureBestValueInAwarding 26Ͳ11Ͳ001Ͳ01Ͳ370
 JobCorps        03/31/11                                                                                                                                 1                   2,475,460
                                    SubͲContracts
                                    
                                   PerformanceAuditofManagementandTraining                                                                                          
 JobCorps        09/30/09                                                                          26Ͳ09Ͳ001Ͳ01Ͳ370                                      1                            63,943
                                    Corporation
                                    
                                   PerformanceAuditofAppliedTechnologySystem,Inc.                                                                                  
 JobCorps        09/30/08                                                                          26Ͳ08Ͳ005Ͳ01Ͳ370                                      2                          678,643
                                    JobCorpsCenters
                                    
                                   ProcurementViolationsandIrregularitiesOccurredIn                                                                                 
   OSHA           01/09/09                                                                          03Ͳ09Ͳ002Ͳ10Ͳ001                                      1                          681,379
                                    OSHA’sOversightofaBlanketPurchaseAgreement
                                                                                                                                                           
 JobCorps        03/18/10        PerformanceAuditofEducationandTrainingResources 26Ͳ10Ͳ003Ͳ01Ͳ370                                                5                            22,758
                                    
                                  RecoveryAct:ETANeedstoStrengthenManagement                                                                                      
     ETA          03/31/10                                                                          18Ͳ11Ͳ001Ͳ03Ͳ001                                      1                          214,124
                                    ControlstoMeetYouthBuildProgramObjectives
                                                                                                                                                           
 JobCorps        08/10/10        PerformanceAuditofMINACT,Inc.JobCorpsOperator 26Ͳ10Ͳ004Ͳ01Ͳ370                                                 6                          203,921
                                    
                                   AppliedTechnologySystems,Inc.OverchargedJobCorps                                                                                
 JobCorps        09/24/10                                                                          26Ͳ10Ͳ006Ͳ01Ͳ370                                      1                       1,800,000
                                    forIndirectCosts
                                    
                                    VETSNeedstoStrengthenManagementControlsOver                                                                                     
    VETS          09/30/10                                                                          06Ͳ10Ͳ002Ͳ02Ͳ001                                      1                       2,300,000
                                    theTransitionAssistanceProgram
                                    
                                   Kansas’ControlsOverJobsForVeteranStateGrant                                                                                    
    VETS          03/31/11        ContractReportingandMonitoringNeedToBe                     04Ͳ11Ͳ002Ͳ01Ͳ070                                      2                          167,065
                                    Strengthened
                             BLSCouldDoMoreToEnsureThatLaborForceStatistics
                             ProgramFundsAreExpendedandReportedIn
     BLS          03/31/11                                                                                        17Ͳ11Ͳ001Ͳ11Ͳ001                        1                            39,273
                             AccordanceWithTheLaborMarketInformation
                             Agreements
TotalNonmonetaryRecommendations,QuestionedCosts328,646,566
          




 62          Semiannual Report to Congress: April 1 - September 30, 2011
                                                     Appendix

                                        Investigative Statistics
        
                                                                                  DivisionTotals                  Total
CasesOpened:                                                                                                       332
ProgramFraud                                                                           294                           
LaborRacketeering                                                                       38                           
CasesClosed:                                                                                                       225
ProgramFraud                                                                           182                           
LaborRacketeering                                                                       43                           
CasesReferredforProsecution:                                                                                     193
ProgramFraud                                                                           158                           
LaborRacketeering                                                                       35                           
CasesReferredforAdministrative/CivilAction:                                                                      96
ProgramFraud                                                                            80                           
LaborRacketeering                                                                       16                           
Indictments:                                                                                                        226
ProgramFraud                                                                           170                           
LaborRacketeering                                                                       56                           
Convictions:                                                                                                        172
ProgramFraud                                                                           137                           
LaborRacketeering                                                                       35                           
Debarments:                                                                                                          35
ProgramFraud                                                                            14                           
LaborRacketeering                                                                       21                           
Recoveries,CostEfficiencies,Restitutions,Fines/Penalties,Forfeitures,and                                        
CivilMonetaryActions:                                                                                          $50,862,453
ProgramFraud                                                                       $21,097,776                       
LaborRacketeering                                                                  $29,764,677                       
        
  Recoveries:Thedollaramount/valueofanagency’sactiontorecoverortoreprogramfundsor                     $4,394,485
  tomakeotheradjustmentsinresponsetoOIGinvestigations
                                                                                                             
CostͲEfficiencies:TheoneͲtimeorperannumdollaramount/valueofmanagement’s
                                                                                                                         $2,831,944
commitment,inresponsetoOIGinvestigations,toutilizethegovernment’sresourcesmore
efficiently
Restitutions/Forfeitures:Thedollaramount/valueofrestitutionsandforfeituresresultingfrom                        
OIGcriminalinvestigations                                                                                           $39,092,042
Fines/Penalties:Thedollaramount/valueoffines,assessments,seizures,investigative/court                           
costs,andotherpenaltiesresultingfromOIGcriminalinvestigations                                                  $1,535,796
CivilMonetaryActions:Thedollaramount/valueofforfeitures,settlements,damages,                                   
judgments,courtcosts,orotherpenaltiesresultingfromOIGcivilinvestigations                                     $3,008,186
Total                                                                                                                 $50,862,453
       




                                                                Semiannual Report to Congress: April 1 - September 30, 2011   63
                                                              Appendix

                                      Peer Review Reporting
    The following meets the requirement under Section 989C of the Dodd-Frank Wall Street Reform and Consumer
  Protection Act (P.L. 111-203) that the Inspectors General include their peer review results as an appendix to each
  semiannual report. Federal audit functions can receive a rating of “pass,” “pass with deficiencies,” or “fail.” Federal
  investigation functions can receive a rating of “compliant” or “noncompliant.”



Peer Review of DOL -OIG Audit                                        Peer Review of DOL-OIG Investigative
Function                                                             Function

The Department of Transportation (DOT)-OIG conducted a               The Treasury Inspector General for Tax Administration
peer review of the system of quality control for DOL-OIG’s           initiated in FY 2010 a peer review of the system of internal
audit function for the year ending on September 30, 2009.            safeguards and management procedures for DOL-OIG’s
This peer review, which was issued on February 3, 2010,              investigative function for the year ending on September
resulted in an opinion that the system of quality control            30, 2010. This peer review found DOL-OIG to be compliant
was suitably designed and provided a reasonable assurance            and made no recommendations.
of DOL-OIG conforming to professional standards in the
conduct of audits. The peer review gave DOL-OIG a pass
rating and made no recommendations.




64     Semiannual Report to Congress: April 1 - September 30, 2011
                                                      Appendix

                              Whistleblower Reporting
    Under the American Recovery and Reinvestment Act of 2009 (ARRA) (P.L. 111-5), an employee of any non-Federal
  employer receiving covered ARRA funds may not be discharged, demoted, or otherwise discriminated against as a
  reprisal for disclosing information that the employee reasonably believes is evidence of: 1) gross mismanagement of
  an agency contract or grant relating to covered funds; 2) a gross waste of covered funds; 3) a substantial and specific
  danger to public health or safety related to the implementation or use of covered funds; 4) an abuse of authority
  related to the implementation or use of covered funds; or 5) a violation of law, rule, or regulation related to an agency
  contract or grant, awarded or issued relating to covered funds.

    The following meets the requirements under this Act that the Inspectors General include in each semiannual report:
  a list of those investigations for which the Inspector General received an extension beyond the applicable 180-day
  period to conduct an investigation and submit a report (Section 1553(b)(2)(B)(iii)), and a list of those investigations
  the Inspector General decided not to conduct or continue (Section 1553(b)(3)(C)).


The OIG closed two Recovery Act whistleblower complaints during this semiannual reporting period.

With respect to the first complaint, an individual submitted a complaint to the OIG claiming that she had been terminated
from a Recovery Act-funded position in retaliation for disclosing information related to alleged fraud and/or irregularities
by her employer, who was a Recovery Act grantee. This complaint was reviewed by the OIG, and the OIG interviewed the
complainant on several occasions. The OIG determined that there was insufficient information indicating that the employer
was aware of her complaints regarding the alleged fraud before she was terminated. Accordingly, the OIG decided not to
take any further action with respect to this retaliation complaint.

With respect to the second complaint, an individual submitted a complaint to the OIG claiming that he had been retaliated
against by a State workforce board that he worked for and that received Recovery Act funds, because he had reported alleged
violations of the Workforce Investment Act. The OIG was informed that the State planned to investigate the individual’s
retaliation claims, and the OIG closed its investigation.




                                                                   Semiannual Report to Congress: April 1 - September 30, 2011   65
                                                                         Appendix

                                                             OIG Hotline
   The OIG Hotline provides a communication link between the OIG and persons who want to report alleged violations
 of laws, rules, and regulations; mismanagement; waste of funds; abuse of authority; or danger to public health and
 safety. During the reporting period April 1, 2011, through September 30, 2011, the OIG Hotline received a total of
 1,220 contacts. Of these, 829 were referred for further review and/or action.

                  

ComplaintsReceived(bymethodreported):                                                                                                            Totals
Telephone                                                                                                                                             886
EͲmail/Internet                                                                                                                                        206
Mail                                                                                                                                                  106
Fax                                                                                                                                                     21
WalkͲIn                                                                                                                                                   1
Total                                                                                                                                                1,220

ContactsReceived(bysource):                                                                                                                       Totals
ComplaintsfromIndividualsorNonͲGovernmentalOrganizations                                                                                       1,170
Complaints/InquiriesfromCongress                                                                                                                       2
ReferralsfromGAO                                                                                                                                      10
ComplaintsfromOtherDOLAgencies                                                                                                                     10
ComplaintsfromOther(nonͲDOL)GovernmentAgencies                                                                                                    28
Total                                                                                                                                               1,220

DispositionofComplaints:                                                                                                                            Totals
ReferredtoOIGComponentsforFurtherReviewand/orAction                                                                                             46
ReferredtoDOLProgramManagementforFurtherReviewand/orAction                                                                                    418
ReferredtoNonͲDOLAgencies/Organizations                                                                                                             365
NoReferralRequired/InformationalContact                                                                                                             416
Total                                                                                                                                               1,245*

 
 *Duringthisreportingperiod,theHotlineofficereferredseveralindividualcomplaintstomultipleofficesorentitiesforreview(i.e.,toOIG
 components,ortoanOIGcomponentandDOLprogrammanagementand/ornonͲDOLAgency).




66      Semiannual Report to Congress: April 1 - September 30, 2011
Office of Inspector General, U.S. Department of Labor
             200 Constitution Avenue, NW
                     Room S-5506
                Washington, DC 20210


               http://www.oig.dol.gov/
                  Office of Inspector General
               United States Department of Labor


  Report Fraud, Waste, and Abuse

             Call the Hotline
     202.693.6999      800.347.3756
             Email: hotline@oig.dol.gov
               Fax: 202.693.7020




  The OIG Hotline is open to the public and to Federal employees
 24 hours a day, 7 days a week to receive allegations of fraud, waste,
and abuse concerning Department of Labor programs and operations.

                             OIG Hotline
                       U.S. Department of Labor
                      Office of Inspector General
                     200 Constitution Avenue, NW
                             Room S-5506
                        Washington, DC 20210
